<html>
<title> - THE AMERICAN ENERGY INITIATIVE, PART 29: A FOCUS ON H.R. 6172</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     THE AMERICAN ENERGY INITIATIVE, PART 29: A FOCUS ON H.R. 6172

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2012

                               __________

                           Serial No. 112-179


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
85-564                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               KATHY CASTOR, Florida
GREG WALDEN, Oregon                  JOHN P. SARBANES, Maryland
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan
MICHAEL C. BURGESS, Texas            EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         ELIOT L. ENGEL, New York
STEVE SCALISE, Louisiana             GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
PETE OLSON, Texas                    MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     CHARLES A. GONZALEZ, Texas
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
H. MORGAN GRIFFITH, Virginia
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     7
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     8
    Prepared statement...........................................    10
Hon. David B. McKinley, a Representative in Congress from the 
  State of West Virginiia, opening statement.....................    11
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    11

                               Witnesses

Eugene M. Trisko, Attorney at Law, on Behalf of United Mine 
  Workers of America.............................................    14
    Prepared statement...........................................    16
Mark McCullough, Executive Vice President, Generation, American 
  Electric Power.................................................    37
    Prepared statement...........................................    39
John N. Voyles, Jr., Vice President, Transmission and Generation 
  Services, LG&E and KU Energy LLC...............................    56
    Prepared statement...........................................    58
Robert Hilton, Vice President, Power Technologies for Government 
  Affairs, Alstom................................................    64
    Prepared statement...........................................    66
John Thompson, Director, Fossil Transition Project, Clean Air 
  Task Force.....................................................   104
    Prepared statement...........................................   106
Daniel A. Lashof, Director, Climate and Clean Air Program, 
  National Resources Defense Council.............................   124
    Prepared statement...........................................   126
John R. Christy, Professor of Atmospheric Science and Director, 
  Earth System Science Center, University of Alabama in 
  Huntsville.....................................................   139
    Prepared statement...........................................   141
    Answers to submitted questions...............................   199

                           Submitted Material

H.R. 6172, submitted by Mr. Whitfield............................     4


     THE AMERICAN ENERGY INITIATIVE, PART 29: A FOCUS ON H.R. 6172

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2012

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Shimkus, 
Walden, Terry, Burgess, Bilbray, Scalise, Olson, McKinley, 
Gardner, Pompeo, Griffith, Barton, Upton (ex officio), Rush, 
Markey, Green, Capps, Doyle, and Waxman (ex officio).
    Staff present: Anita Bradley, Senior Policy Advisor to 
Chairman Emeritus; Maryam Brown, Chief Counsel, Energy and 
Power; Allison Busbee, Legislative Clerk; Patrick Currier, 
Counsel, Energy and Power; Andy Duberstein, Deputy Press 
Secretary; Cory Hicks, Policy Coordinator, Energy and Power; 
Heidi King, Chief Economist; Ben Lieberman, Counsel, Energy and 
Power; Mary Neumayr, Senior Energy Counsel; Peter Spencer, 
Professional Staff Member, Oversight; Kristina Friedman, 
Democratic EPA Detailee; Caitlin Haberman, Democratic Policy 
Analyst; and Alexandra Teitz, Democratic Senior Counsel, Energy 
and Environment.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call this hearing to order, 
and once again, I want to thank the members of the panel for 
being here and we look forward to your testimony. All of you 
have had a lot of experience in the issues that we will be 
talking about, so after we finish opening statements, I will be 
introducing each one of you individually.
    Today we are holding the 29th day of our American Energy 
Initiative hearing. We will be focusing on H.R. 6172, which 
would prohibit EPA's proposed New Source Performance Standard 
for greenhouse gases from being finalized until it is 
technologically and economically feasible. I want to thank Mr. 
McKinley of West Virginia for spearheading this legislation, 
and I also want to thank the Democratic members who cosponsored 
this legislation.
    I don't think that anyone is not aware of the fact that 
this administration has a strong bias against coal. We all are 
familiar with the President's comments in San Francisco when he 
was running for President that people would be able to build 
coal plants if he is elected President but they would be 
bankrupt. Yesterday, many of you read about Alpha Resources 
closing down eight coalmines, 1,200 jobs. Patriot Coal recently 
announced they were going into bankruptcy. Murray Coal up in 
Ohio, West Virginia, Kentucky and Illinois has announced they 
are going to be closing down three mines. And I understand the 
argument on the other side because they say it has nothing to 
with us, it has nothing to do with our regulations, this is 
because natural-gas prices are low, which is true. But even if 
that were not the case, once this regulation becomes final, no 
one will be able to build a new coal power plant in America. 
And so I lay that at the foot of the President and his 
administration. It is their responsibility and they are 
responsible for where we are today as it relates to coal. It 
still produces a great portion of the electricity in our 
country.
    Now, it is easy to talk about the benefits of lowering 
carbon dioxide emissions, and I would be the first to admit the 
Clean Air Act has been very successful. But I would also say 
that when EPA considers the benefits, and there are benefits 
from many regulations, that they have a responsibility to 
consider the cost and the impact on the health care of the 
thousands of people who lose their jobs as a direct result of 
the regulations. And of course, they never consider those 
costs.
    And so this legislation is very simple. It basically says 
no, you are not going to be able to implement this until it is 
shown that, technologically and economically, it is feasible to 
use carbon capture and sequestration and it appoints three 
different agencies in the government to make that decision.
    [The prepared statement of Mr. Whitfield and H.R. 6172 
follow:]

[GRAPHIC] [TIFF OMITTED] T5564.001

[GRAPHIC] [TIFF OMITTED] T5564.002

[GRAPHIC] [TIFF OMITTED] T5564.003

[GRAPHIC] [TIFF OMITTED] T5564.004

    Mr. Whitfield. So I was going to yield to Mr. Barton. I see 
he is not here. Mr. Shimkus, do you have any comments you would 
like to make?

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I appreciate the 
hearing.
    There was a huge rally in deep southern Illinois over the 
weekend to protect and save coalmining jobs in the country, and 
for the administration to continue to make this assault on our 
cheapest form of electricity generation, and I think for a lot 
of us who have been in this fight for a long time, it is the 
multitude of rules and regulations that are coming down from 
boiler MACT, mercury MACT, cooling towers to CSAPR. You name 
it, there is another rule and reg. No wonder there is 
uncertainty in the sector and no wonder they have to make tough 
decisions. These tough decisions are the loss of jobs, 
coalmining jobs in rural America.
    The untold story is also the loss of a taxpaying base to 
small, rural America that helps support our schools, our 
hospitals, our local communities, our public-safety net. That 
is why we are as impassioned as our friends on the other side 
saying we just have to stop this assault, so I appreciate the 
hearing. It comes at a critical time, and thank you for it.
    Mr. Whitfield. At this time I recognize the gentleman from 
Illinois, Mr. Rush, for 5 minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, and Mr. 
Chairman, we are here yet another time, yet another day, yet 
another bill being introduced by my Republican colleagues that 
will attempt to roll back the progress that the American people 
have made and block and delay EPA rules that are designed to 
make our air, land, and water cleaner for the American people 
including those people who now currently have and will in the 
future work in coalmines.
    Today's hearing marks the 29th in a series of hearings that 
the majority party has dubbed the American Energy Initiative, 
but from each of those hearings, which represents hundreds of 
hours of endless debate, endless discussion and endless delay, 
we have enacted exactly zero, nada energy policy to move the 
country forward. All this hearings and it hasn't produced one 
bill that moved this country forward.
    Mr. Chairman, if today's hearing feels a bit like dEja vu 
all over again, as Yogi Berra would say, to those that are 
watching this subcommittee just because we have been here and 
we have done this countless times already.
    Today's hearing will focus on H.R. 6172, a bill that 
prohibits the EPA from finalizing standards of performance 
under section 111 of the Clean Air Act for carbon dioxide 
emissions from existing or new fossil fuel-fired power plants 
unless or until carbon capture and storage is found to be 
technologically and economically feasible. Ironically, Mr. 
Chairman, this bill comes on the heels of the last markup the 
subcommittee held where the majority defeated an amendment I 
offered that would have exempted future clean-coal projects 
from the arbitrary December 2011 deadline, and my Republican 
colleagues' misguided attempts to disrupt the Department of 
Energy loan program by prohibiting any funding for future 
proposals regardless of the merits or technological advances of 
those projects. So as the first attempt to abandon any new 
Department of Energy funding for future clean-coal projects, 
the majority party is now bringing forth a bill that would 
block and delay EPA rules from finalizing the proposed carbon 
pollution standards for new power plants or any future carbon 
pollution standards for existing power plants until carbon 
capture and sequestration is technologically and economically 
feasible. This bill to most people would seem simply another 
attempt to try and shield the dirtiest polluters from 
commonsense air quality standards that would make their 
facilities cleaner and more efficient while protecting 
Americans' health.
    Mr. Chairman, this messaging bill sends a clear message to 
industry that if we don't succeed once, twice, 10, 20, or in 
this instance, 29 times, we will try and try and try again to 
show the industry that we are with them standing shoulder to 
shoulder not to be divided by the plight or the affairs of 
Americans' public health.
    Mr. Chairman, this is a dead-on-arrival bill, as you well 
know, and if the stakes weren't so high and important to the 
protect the American people, then we could get a laugh out of 
29 times and nothing to show for it, these message after 
message attempts on the part of the Republicans. Whatever 
happened to governing through bipartisan legislation?
    Mr. Chairman, I think that this bill and our time here is a 
waste of our energy, a waste of our time, and it certainly is 
not an attack on coal, it is an attack on progress and what is 
best for the American people and common sense.
    I yield back.
    Mr. Whitfield. Thank you, Mr. Rush.
    At this time I recognize the gentleman from Michigan, Mr. 
Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    This hearing on H.R. 6172 continues the committee's 
oversight of EPA's costly regulatory agenda and follows 
previous subcommittee hearings on EPA's myriad greenhouse gas 
regulations, including its most recently proposed rule that 
would establish new emissions standards for fossil-fuel-fired 
power plants. We are extremely concerned about the impacts that 
this proposed rule would have on the future of affordable coal-
fired power generation in America if indeed it is finalized.
    As currently written, the rule requires any new coal-fired 
plants to install costly carbon capture and sequestration 
technology. However, even President Obama's Department of 
Energy has acknowledged that CCS technology is not yet 
commercially available and that large-scale commercialization 
remains years, if not decades, away.
    Leaders in CCS technology and industry stakeholders agree 
that significant technical, legal and regulatory hurdles still 
need to be overcome in order to successfully bring CCS to 
commercial scale. And because CCS technology remains in its 
early stages of development, not a single CCS developer in the 
world can currently guarantee that its technology will work at 
commercial scale, and without such a guarantee, power plant 
operators will not, and cannot, make investment in CCS 
technology.
    In other words, unless and until CCS technology is proven 
to be commercially viable and cost-effective, EPA's proposed 
rule will effectively prevent the construction of any new coal-
fired power plants in America. But a ban on coal-fired 
generation is the end result that the administration probably 
is trying to achieve.
    We shouldn't be surprised by that. This administration's 
position on coal has been crystal clear: President Obama 
himself said he wants to ``bankrupt'' coal companies and that 
``electricity prices will necessarily skyrocket.'' Meanwhile, 
the Secretary of Energy has declared that coal is his worst 
nightmare. Those are his words.
    This proposed rule would do exactly what the administration 
set out to do from the very start: prohibit the future use of 
coal in this country. Clearly, there is a war on coal that is 
being waged by the administration. Just ask the 1,200 employees 
of Alpha Natural Resources that were told this week that they 
are going to be out very quickly because of the announced mine 
closures forced in part by Federal regs aimed at restricting 
the use of coal, or the hundreds, probably thousands of other 
miners across the coal belt who have recently received pink 
slips too.
    If finalized, this rule will have a detrimental impact on 
electricity generation in the country and future electricity 
prices as well. This is why we are going to continue to 
scrutinize EPA's proposed rule and why I appreciate the 
gentleman from West Virginia's leadership on this bill, and I 
will yield now the balance of my time to Mr. McKinley.
    [The prepared statement of Mr. Upton follows:]
    [GRAPHIC] [TIFF OMITTED] T5564.005
    
 OPENING STATEMENT OF HON. DAVID B. MCKINLEY, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. McKinley. Thank you, Mr. Chairman.
    The EPA is indeed proposing a regulation that future coal-
fired facilities must implement a carbon capture system that 
reduces their emissions by 50 percent, but like you have heard 
from some of the other speakers, it cannot be performed. There 
are no commercial applications available. We have even heard 
testimony, as you before from the EPA, saying we know that it 
can't be done for 10 years or more. Therefore, the mission here 
is no coal-fired electric powerhouses will be constructed in 
America until this technology is available.
    Now, that has to be coupled with the concept of maybe 
through research and development, maybe that will happen, but 
we all know here in Congress that this administration has cut 
the research money in National Energy Technology Lab last year 
40 percent, this year 41 percent. How are we going to achieve 
this objective if we don't have the research into the 
development of this process?
    You have heard the quotes. I will add one more. Joe Biden, 
the Vice President, has said that this administration does not 
support clean-coal technology. What better manifestation of it 
in this particular rule that they are promulgating? They are 
trying to bankrupt us to stop us from burning coal and what 
they are doing is hurting the working men and women all across 
America, putting them out of work, these 1,200 people.
    We have learned that AEP has already canceled one of its 
own projects, the Mountaineer plant, because they found out 
that that cost was going to be, as I understand it, increasing 
the utility bills by 80 percent to consumers, to schools, to 
manufacturers, and they chose not to do it.
    So for anyone that believes that there is no war on coal, 
they are in denial. This President, this administration and 
those who support him are hurting our consumers. They are 
hurting our Nation. They are close-minded about where we are 
going to go in developing our fossil fuels, the fuel that 
feuded our industry revolution.
    So this war on coal must stop. These ideologically driven 
regulations must not be implemented until the technology and 
the economics justify their cost.
    Thank you very much, and I yield back the balance of my 
time.
    Mr. Whitfield. At this time I recognize the gentleman from 
California, Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    This committee has heard a lot of arguments from victims 
and people are being convinced that they are victims by the 
government when that is not the case. Let me cite an example. 
This committee had a hearing on EPA's proposed regulation of 
farm dust. Can anybody think of anything more ridiculous than 
regulating farm dust that is ubiquitous to farms? So this 
committee rushed legislation to protect the farmers from EPA 
regulation of farm dust even though EPA said they had no plans 
to regulate farm dust, and we passed a bill. Do you know what 
the bill did? It provided for repeal of regulations from open-
pit mining that put out particulate matter and toxic substances 
in the air. So the farmers were told they were victims and they 
were being used for a different purpose.
    It is not the government's fault if a utility decides it is 
cheaper to use natural gas than coal. That is what we call 
economics. If it is cheaper to use another substance, they will 
use it. Do we want to stop them from doing that? Do we want to 
stop the free enterprise system?
    We don't have the technology to remove the carbon from coal 
and store it. It is a technology we all should want to have. 
But the industry has no incentive to develop that technology 
because they are doing fine selling coal and using coal without 
that technology. That would just be an extra expense.
    So you have two ways you could get that technology. One is 
to say you have got to use it in order to achieve a certain 
standard. Well, the best way to achieve that standard, that is 
the way the environmental laws have worked in the past as long 
as we allow source of electricity to compete as long as it does 
not cause unacceptable harm to health and the environment. This 
bill picks winners and losers. The other EPA would set a 
standard that companies that generate electricity from coal 
will not have a free pass on pollution.
    But there was another way to do it. That was the way Mr. 
Upton proposed in legislation that would have put a fee on 
those who get electricity from coal and that fee would have 
been used exclusively for research and development of the 
technology. That was a bill he introduced in the last Congress 
with Mr. Boucher, and I suggested to him that we would take up 
that bill and vote for it. If we can't do anything else, at 
least do that. Never heard any other word on the subject after 
we proposed doing that.
    The Republicans in this House passed H.R. 910, the Upton-
Inhofe bill. That would have barred EPA from reducing dangerous 
carbon pollution and codified science denial by overturning 
EPA's scientific finding that carbon pollution endangers health 
and welfare. It is a premise that climate change is a hoax, and 
since that time early last year, this Republican House has 
proved to be the most anti-environmental in the history of the 
Congress.
    Republicans have voted more than 300 times on the House 
Floor to weaken longstanding public-health and environmental 
laws, block environmental standards, defund protections of our 
air, water and public lands, oppose clean energy. They voted 47 
times to block action on climate change. When they passed that 
Upton-Inhofe bill a year and a half ago, House Republicans 
argued the science was uncertain, EPA was exceeding its 
authority. By now, everybody should understand that they were 
wrong on both counts. The science has been clear and clearer, 
and just look at all the signs of climate change occurring 
around us: recent wildfires, droughts, heat waves, exactly the 
type of extreme weather events that scientists have been 
predicting for years and that this committee has been ignoring.
    Since the passage of the Upton-Inhofe bill, we have sent 17 
letters to the chairman of this committee requesting hearings 
on new developments in climate science. We haven't even gotten 
a reply. Instead, what we have is the leadership of this 
committee talking about a war on coal, and if coalminers are 
losing their jobs, it is because of the government. Well, it is 
because of economics and the unwillingness of the Republicans 
who control the House to figure a way out of this issue.
    The EPA is not overreaching. The courts have affirmed their 
power to regulate in this area. It is about time we try to help 
the people in the coal area be viable in a new economy that is 
coming. Otherwise you can scare them with talk of war against 
them but it is a dishonest approach. It doesn't help them. It 
stirs up the feelings of victimology by the people in these 
areas, and I suppose it is supposed to help Republicans in the 
election. But sometimes let us stop playing politics and deal 
with national urgent matters, and this committee has refused to 
do it for a year and a half.
    Mr. Whitfield. At this time I would like to introduce the 
members of the panel. Once again, thank you for being with us 
today. We look forward to your testimony.
    First, we have Mr. Eugene Trisko, who is an attorney at law 
representing the United Mine Workers of America. We have Mr. 
Mark McCullough, who is Executive Vice President of Generation 
at American Electric Power. We have Mr. John Voyles, Jr., who 
is the Vice President of Transmission and Generation Services 
at Louisville Gas and Electric and KU Energy. We have Mr. 
Robert Hilton, who is Vice President of Power Technologies for 
Government Affairs at Alstom Power. And we have Mr. John 
Thompson, who is the Director of Fossil Transition Project at 
the Clean Air Task Force, and we have Dr. Dan Lashof, who is 
the Director of Climate and Clean Air for the Natural Resources 
Defense Council, and we have Dr. John R. Christy, who is 
Professor and Director of the Earth Science System Center at 
the University of Alabama in Huntsville.
    So thank you for being with us. Each one of you will be 
given 5 minutes to give an opening statement, and you will 
notice there is a little clock up here, so once your time is 
expired, it is expired. Obviously I am not going to just 
immediately cut you off but I wouldn't want you to go on like 
10 minutes, but we do look forward to your testimony.
    Mr. Trisko, I will recognize you for 5 minutes for your 
opening statement.

 STATEMENTS OF EUGENE M. TRISKO, ATTORNEY AT LAW, ON BEHALF OF 
UNITED MINE WORKERS OF AMERICA; MARK MCCULLOUGH, EXECUTIVE VICE 
PRESIDENT, GENERATION, AMERICAN ELECTRIC POWER; JOHN N. VOYLES, 
JR., VICE PRESIDENT, TRANSMISSION AND GENERATION SERVICES, LG&E 
    AND KU ENERGY LLC; ROBERT HILTON, VICE PRESIDENT, POWER 
  TECHNOLOGIES FOR GOVERNMENT AFFAIRS, ALSTOM; JOHN THOMPSON, 
  DIRECTOR, FOSSIL TRANSITION PROJECT, CLEAN AIR TASK FORCE; 
  DANIEL A. LASHOF, DIRECTOR, CLIMATE AND CLEAN AIR PROGRAM, 
   NATIONAL RESOURCES DEFENSE COUNCIL; AND JOHN R. CHRISTY, 
  PROFESSOR OF ATMOSPHERIC SCIENCE AND DIRECTOR, EARTH SYSTEM 
      SCIENCE CENTER, UNIVERSITY OF ALABAMA IN HUNTSVILLE

                 STATEMENT OF EUGENE M. TRISKO

    Mr. Trisko. Thank you. Good morning, Chairman Whitfield, 
Ranking Member Rush, distinguished members. I am Eugene Trisko. 
I am an attorney in private practice, and I am pleased to be 
here today to testify on behalf of the United Mine Workers of 
America to support the enactment of H.R. 6172. I have had the 
honor of representing the UMWA in Clean Air Act and domestic 
international climate change issues for the past 25 years.
    H.R. 6172 is sound policy and a commonsense solution to the 
threat to new advanced coal generation posed by EPA's proposed 
carbon pollution standard rule. That rule sets a uniform 
CO<INF>2</INF> emissions rate of 1,000 pounds of CO<INF>2</INF> 
per megawatt-hour applicable to both coal and natural-gas 
combined cycle units. New coal units would need to employ CCS 
technology to comply while new natural-gas combined cycle units 
could comply without CCS.
    EPA and DOE's National Energy Technology Lab estimates that 
applying CCS to new coal-based units would increase the cost of 
electric power by 80 percent. CCS has not been commercially 
demonstrated in this country as indicated by the findings of 
the 2010 Interagency Task Force Report on Carbon Capture and 
Storage. EPA's proposed rule is simply a means of forcing 
winners and losers in the future market for electric 
generation.
    The proposed rule also ignores 40 years of EPA regulation 
under the Clean Air Act by lumping together these two very 
different sources of electric generation into one category 
subject to a single emission standard that only one type of 
source can meet. The EPA rule says in effect that the best 
system of emission reduction for new coal and natural-gas units 
is natural-gas combined cycle technology. The mine workers 
comments to EPA, which are attached to my testimony, note that 
natural-gas combined cycle is a form of producing electricity, 
not a best system of emission reduction under the Clean Air 
Act.
    The UMWA has supported previous legislation to accelerate 
the commercial demonstration of CCS technologies including the 
Upton-Boucher bill. This legislation has not been enacted and 
funding available through DOE has not been adequate to support 
successful large-scale demonstration of CCS technology. We are 
hopeful that new proposals will be developed to put CCS 
demonstration projects on a firmer financial footing.
    Coal is an indispensable part of America's energy supply 
and must be a core element of any all-of-the-above energy 
policy. More than one-third of our Nation's electricity is 
generated by coal, mainly in baseload plants. The principal 
alternatives to coal for future baseload generation are nuclear 
and natural gas. While natural-gas prices have declined 
recently, substantial uncertainty surrounds future natural-gas 
prices, particularly in view of the 40- to 60-year lifetimes of 
electric generation assets.
    The United States should take the lead in establishing the 
technical and commercial viability of CCS technology for use 
both here and abroad. India and China have vast coal reserves 
and will continue to rely upon them to support their own 
economic development. China alone consumes three times more 
coal than we do. Our recoverable coal reserves hold the energy 
equivalent of the world's proven oil reserves.
    The United States should pursue policies that will 
accelerate, not stymie, the full range of advanced coal 
technologies including commercial-scale demonstration and 
deployment of CCS. Rethinking the EPA carbon pollution standard 
rule is an important step in that direction, and we support 
this bill. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Trisko follows:]

    [GRAPHIC] [TIFF OMITTED] T5564.006
    
    [GRAPHIC] [TIFF OMITTED] T5564.007
    
    [GRAPHIC] [TIFF OMITTED] T5564.008
    
    [GRAPHIC] [TIFF OMITTED] T5564.009
    
    [GRAPHIC] [TIFF OMITTED] T5564.010
    
    [GRAPHIC] [TIFF OMITTED] T5564.011
    
    [GRAPHIC] [TIFF OMITTED] T5564.012
    
    [GRAPHIC] [TIFF OMITTED] T5564.013
    
    [GRAPHIC] [TIFF OMITTED] T5564.014
    
    [GRAPHIC] [TIFF OMITTED] T5564.015
    
    [GRAPHIC] [TIFF OMITTED] T5564.016
    
    [GRAPHIC] [TIFF OMITTED] T5564.017
    
    [GRAPHIC] [TIFF OMITTED] T5564.018
    
    [GRAPHIC] [TIFF OMITTED] T5564.019
    
    [GRAPHIC] [TIFF OMITTED] T5564.020
    
    [GRAPHIC] [TIFF OMITTED] T5564.021
    
    [GRAPHIC] [TIFF OMITTED] T5564.022
    
    [GRAPHIC] [TIFF OMITTED] T5564.023
    
    [GRAPHIC] [TIFF OMITTED] T5564.024
    
    [GRAPHIC] [TIFF OMITTED] T5564.025
    
    [GRAPHIC] [TIFF OMITTED] T5564.026
    
    Mr. Whitfield. Thank you.
    Mr. McCullough, you are recognized for 5 minutes.

                  STATEMENT OF MARK MCCULLOUGH

    Mr. McCullough. Chairman Whitfield, Ranking Minority Member 
Rush and distinguished members of the Committee on Energy and 
Commerce, thank you for inviting me here today. I appreciate 
this opportunity to offer the views of AEP on EPA's proposed 
Greenhouse Gas New Source Performance Standard and the current 
state of carbon capture and storage technology.
    My name is Mark McCullough. I am the Executive Vice 
President of Generation at AEP. AEP is one of the Nation's 
largest generators, owning more than 37,000 megawatts of 
generating capacity and serving more than 5 million retail 
customers. EPA's generating fleet employs diverse fuel sources 
including coal, nuclear, hydroelectric, natural gas, oil and 
wind. Due to the location of our service area and historic 
importance of coal to the economies of our States, 
approximately two-thirds of our generating capacity utilizes 
coal.
    AEP has a long history of proactive involvement in 
environmental stewardship, particularly with regard to reducing 
its net carbon emissions. Perhaps AEP's most significant 
contribution to technology solutions for addressing greenhouse 
gas emissions was a successful completion of a validation scale 
demonstration of the world's first fully integrated CCS project 
at an existing coal-fired electric generating unit. The 
Mountaineer CCS Project treated a 20-megawatt portion of flue 
gas from our 1,300-megawatt Mountaineer plant, removed the 
CO<INF>2</INF>, compressed it and injected it into two deep 
underground formations from 2009 to 2011, permanently storing 
nearly 40,000 tons of CO<INF>2</INF>.
    AEP has long maintained that the Clean Air Act is not a 
practical or cost-effective vehicle to limit greenhouse gas 
emission and any system to regulate greenhouse gas emissions 
should be developed by Congress. Global climate change and 
greenhouse gas emissions present a new set of issues that the 
existing framework of the Clean Air Act was never intended to 
address. As such, regulation of greenhouse gases under the 
existing Act is likely to be ill designed and significantly 
more costly than a more flexible legislative approach.
    The proposed New Source Performance Standard is a fuel-
discriminatory rule that in effect requires CCS technologies 
that are not yet commercially available to be used on all new 
coal plants. As such, the NSPS is impractical and not legally 
justifiable. AEP's main concerns are the combination of two 
source categories, coal and natural gas, and setting a single 
standard based on EPA's estimate of the emission rate 
achievable at a new natural-gas combined cycle unit. This 
standard will preclude the construction of new coal-fired 
generation without the addition of CCS. However, based on AEP's 
experience and EPA's own admission, this technology is neither 
commercially demonstrated nor economically viable for coal-
fired electric generation. Without a viable CCS solution, the 
NSPS forces reliance on a historically volatile commodity--
natural gas--for new fossil generation, which could burden 
consumers with additional and unnecessary future risk in their 
energy costs.
    AEP believes that technological solutions such as CCS are 
critical to reducing emissions. However, CCS technology has not 
yet been proved at a commercial scale and cannot be provided 
with robust guarantees on performance and reliability. 
Furthermore, the path to CCS commercialization is also filled 
with significant regulatory and legal barriers regarding the 
ownership of storage space and long-term liability, which will 
also need to be resolved prior to commercialization. Given the 
obvious need for commercially available and cost-effective CCS 
in order to meet EPA's proposed NSPS for coal plants, H.R. 
6172, introduced by Representative McKinley, provides much 
needed Congressional direction in finalizing the NSPS for power 
plants and ensures that coal continues as a fuel for a balanced 
energy future.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. McCullough follows:]

    [GRAPHIC] [TIFF OMITTED] T5564.027
    
    [GRAPHIC] [TIFF OMITTED] T5564.028
    
    [GRAPHIC] [TIFF OMITTED] T5564.029
    
    [GRAPHIC] [TIFF OMITTED] T5564.030
    
    [GRAPHIC] [TIFF OMITTED] T5564.031
    
    [GRAPHIC] [TIFF OMITTED] T5564.032
    
    [GRAPHIC] [TIFF OMITTED] T5564.033
    
    [GRAPHIC] [TIFF OMITTED] T5564.034
    
    [GRAPHIC] [TIFF OMITTED] T5564.035
    
    [GRAPHIC] [TIFF OMITTED] T5564.036
    
    [GRAPHIC] [TIFF OMITTED] T5564.037
    
    [GRAPHIC] [TIFF OMITTED] T5564.038
    
    [GRAPHIC] [TIFF OMITTED] T5564.039
    
    [GRAPHIC] [TIFF OMITTED] T5564.040
    
    [GRAPHIC] [TIFF OMITTED] T5564.041
    
    [GRAPHIC] [TIFF OMITTED] T5564.042
    
    [GRAPHIC] [TIFF OMITTED] T5564.043
    
    Mr. Whitfield. Thank you very much.
    And Mr. Voyles, you are recognized for 5 minutes.

                STATEMENT OF JOHN N. VOYLES, JR.

    Mr. Voyles. Good morning, Chairman Whitfield, Ranking 
Minority Member Rush and distinguished subcommittee members, 
thank you for the opportunity to appear before you today to 
present comments regarding proposed House bill 6172. My name is 
John Voyles, Jr. I am the Vice President of Transmission and 
Generation Services for LG&E and KU Energy. LG&E and KU Energy 
is a wholly owned subsidy of PPL Corporation and operate 
Louisville Gas and Electric Company and Kentucky Utilities 
Company, regulated utilities that serve 1.3 million customers 
in 90 Kentucky counties and five counties in Virginia.
    Today, the company's operated capacity is approximately 
8,100 megawatts. Of that capacity, 74 percent is coal-fired, 25 
percent is gas-fired peaking units, and the remaining 1 percent 
is hydroelectric. Approximately 96 percent of our coal-fired 
capacity is equipped with controls for sulfur dioxide and 67 
percent of the capacity has SCR for nitrogen dioxide control. 
After assessing the impact of the most recent regulations 
promulgated by the EPA, the companies developed compliance 
plans, which were presented to and approved by the Kentucky 
Public Service Commission in December of 2011 and May of 2012. 
Those plans include installing additional environmental 
controls at four stations, retiring 800 megawatts of coal-fired 
capacity and constructing a new 640-megawatt gas-fired combined 
cycle unit. These investments are expected to cost up to an 
additional $3 billion and projected to raise electric rates by 
up to 14 percent and 18 percent for KU and LG&E customers, 
respectively, by 2016.
    My company has not been standing idly by on the sidelines 
waiting for carbon dioxide policy or regulatory developments. 
Since 2006, we have invested millions of dollars in research 
and development aimed at finding technically and economically 
viable carbon management solutions for electric generating 
units. We were the founding member of the Carbon Management 
Research Group at the University of Kentucky's Center for 
Applied Energy Research and a member of the Western Kentucky 
Carbon Storage Foundation. The CMRG membership has grown to 
include three other electric generators that operate in 
Kentucky and the Electric Power Research Institute. We have 
made our E.W. Brown coal-fired plant site available to the CMRG 
as the test location for a carbon capture slipstream project 
which received a $14.5 million supporting grant from the 
Department of Energy in 2011. Additionally, we fund research on 
carbon capture technology supported by two other DOE grants, 
one with the University of Texas and one with the 3H Company. 
As a member of EPRI, we continue to fund collaborative research 
for carbon management and stay abreast of technological 
developments. Through these efforts we track several pilot 
projects in North America and across the globe. We are aware of 
no full-scale application of carbon capture and storage in 
continuous operation on a fossil-fueled electric generating 
unit. There are several technical and policy hurdles for CCS 
that remain unresolved which I will highlight briefly today.
    First, the energy penalty to add CCS technology to a coal-
fired electric generating unit is prohibitively high. Many of 
the current pilot projects estimate that the parasitic load and 
cycle efficiency penalties to be at least 25 or 30 percent of a 
generating station output. For a company like mine, those 
penalties would mean if CCS technology were retrofitted to an 
existing 2,000-megawatt coal-fired station producing power for 
our customers today, the output from the plant would be reduced 
by 500 megawatts at a minimum. That loss of production 
capability would have to be replaced by some source of energy 
supply, creating additional costs for the consumers and perhaps 
other emissions to the environment.
    However, an even bigger challenge is the application of 
CO<INF>2</INF> storage technology. While some carbon dioxide is 
successfully being utilized in enhanced oil or methane recovery 
operations and other pilots have successfully injected small 
quantities of CO<INF>2</INF> into deep saline aquifers, the 
volume of storage necessary to facilitate such operations on a 
continuous basis for the life of an electric generating station 
has yet to be established. Very serious questions remain 
regarding the implications such injection processes have on 
mineral and property rights, the monitoring of the 
CO<INF>2</INF> plume across property lines or State boundaries, 
and the verification systems necessary to ensure long-term 
monitoring is taken into account. We believe these questions 
loom much larger than the simple view that CO<INF>2</INF> can 
be captured and injected underground and might be done more 
cost-effectively with less energy penalties at some 
undetermined point in the future.
    Until such time as CCS technology is commercially available 
to be deployed at full scale in a technical and economical 
manner, we are concerned that any standard of performance 
proposed for CO<INF>2</INF> emissions from existing or new 
electric generating units will effectively eliminate coal-fired 
generation from the Nation's energy portfolio. On July 16, 
2012, we provided testimony to this subcommittee on the U.S. 
EPA's proposed Greenhouse Gas New Source Performance Standards. 
In those comments, we explained the importance of having 
separate standards for new and existing plants by fuel type and 
our concern that EPA's proposal for new plants could not even 
be met by new gas-fired plants. Those comments assumed that EPA 
is required by law to develop greenhouse gas standards. A 
clearly better course would be for Congress to pass legislation 
relieving EPA of the obligation to develop greenhouse gas 
standards until carbon capture and storage becomes an 
economically and technologically viable option.
    Thank you for the opportunity to comment on House bill 
6172.
    [The prepared statement of Mr. Voyles follows:]

    [GRAPHIC] [TIFF OMITTED] T5564.044
    
    [GRAPHIC] [TIFF OMITTED] T5564.045
    
    [GRAPHIC] [TIFF OMITTED] T5564.046
    
    [GRAPHIC] [TIFF OMITTED] T5564.047
    
    [GRAPHIC] [TIFF OMITTED] T5564.048
    
    [GRAPHIC] [TIFF OMITTED] T5564.049
    
    Mr. Whitfield. Thank you very much, Mr. Voyles.
    Mr. Hilton, you are recognized for 5 minutes.

                   STATEMENT OF ROBERT HILTON

    Mr. Hilton. Thank you. Good morning. My name is Robert 
Hilton. I hold the position of Vice President of Power 
Technologies for Government Affairs for Alstom. I would like to 
thank Chairman Whitfield and Ranking Member Rush as well as the 
entire subcommittee for the opportunity to address these key 
issues on CCS.
    Alstom is a global leader in power generation, transmission 
and transportation infrastructure. More than 50 percent of the 
power plants in the United States have Alstom equipment, and 25 
percent of the world's electricity is generated on Alstom 
equipment. We are the largest air pollution control company in 
the world. In the United States, Alstom employs about 6,000 
full-time permanent employees in 45 States, and 91,000 
globally. Alstom provides virtually all power generation 
technology options. Significant pillars of our program are 
deployment of non-CO<INF>2</INF> sources of generation, like 
renewables and nuclear, reduced CO<INF>2</INF> emissions 
through efficiency, and the CO<INF>2</INF> capture from fossil 
fuels. Alstom invests approximately $1 billion annually in R&D. 
Alstom has completed work on four pilot and validation-scale 
plants and has 10 pilots, validation, and commercial-scale 
plants in operation, design, or construction worldwide. These 
CCS projects include both coal and gas generation.
    We are here today to specifically address the status of CCS 
as a commercial technology. CCS is, within the realm of 
innovation, no different than any other technology under 
development. It is required to move through various stages of 
development at consistently larger scale. Alstom has taken each 
of its CCS-related technologies from the bench level to 
validation scale with the aim of finally reaching commercial. 
However, to date, no CCS technologies have been deployed at 
commercial scale. Validation scale is the proof of technology 
in real field conditions. This is important. It is at this 
point we can say confidently that the basic technology works. 
CCS technology is technologically feasible now.
    The final stage to reach commercial status is to perform a 
demonstration at full scale. It is critical to define the risk 
of technology to make offers. This cannot be defined until the 
technology can be shown to work at full scale. This is the 
first opportunity we have to work with the exact equipment in 
the exact operating conditions that will become the subject of 
contractual conditions including performance and other 
contractual guarantees. This also becomes the first opportunity 
to optimize the process and equipment to effect best 
performance and seek cost reduction. Based on these criteria, 
Alstom does not currently deem its technologies for CCS 
commercial and, to my knowledge, there are no other technology 
suppliers globally that can do so. I emphasize, however, that 
the technologies being developed by Alstom and others work 
successfully.
    For a number of reasons primarily related to technology 
funding and lack of regulatory clarity, the timeline for 
commercialization for CCS is not clear. The current DOE program 
for first generation-technologies on CCS appears not likely to 
become operational until 2017 with the exception of the Kemper 
plant. Globally, the picture is similar.
    When we look at the history of the EPA and the air-
pollution-control industry, we generally see a harmony of 
regulation and technology development. In many cases, we have 
had the ability to meet or anticipate the need for certain 
technologies and in other cases we have developed the base 
technologies either in other industries. In its recent 
rulemaking, EPA has required CCS for all new coal plants and, 
conceivably gas plants. While Alstom, in conjunction with AEP, 
has run the largest plant, we are not ready to do this on 500- 
or 1,000-megawatt plants. It has been suggested that the 
proposed rule would stimulate CCS development. However, 
advancing CCS requires a regulatory approach that recognizes 
the steps of the technology development process and the need 
for financing. Commercial power plants cannot secure financing 
for a plant that includes technology still under development 
and that carries with it undefined guarantees.
    Coal is an important part of America's future energy mix as 
it has been in the past. It is an abundant resource we have, 
and we have the technologies to make it clean in all other 
respects. CCS is coming but preventing new highly efficient 
coal plants from being built to replace older less efficient 
plants by requiring a technology not yet in practice is not in 
keeping with the needs of the industry or the public. We 
believe a more realistic approach would be to provide a 
reasonable ramp down of CO<INF>2</INF> over time that can take 
advantage of efficiency and other technologies to reduce 
CO<INF>2</INF> in a gradual manner. This would provide the 
industry, along with State and local regulators, with the 
needed incentive to support CCS.
    Alstom believes that the technology will be commercial when 
the industry determines that both buyer and seller can enter 
into ordinary contractual relations that meet the needs of both 
parties. We know that carbon capture technology works. We 
believe CCS will play a pivotal role in meeting the needs of 
carbon. We need time and support to reach the point of 
commercial offerings.
    I thank you.
    [The prepared statement of Mr. Hilton follows:]

    [GRAPHIC] [TIFF OMITTED] T5564.050
    
    [GRAPHIC] [TIFF OMITTED] T5564.051
    
    [GRAPHIC] [TIFF OMITTED] T5564.052
    
    [GRAPHIC] [TIFF OMITTED] T5564.053
    
    [GRAPHIC] [TIFF OMITTED] T5564.054
    
    [GRAPHIC] [TIFF OMITTED] T5564.055
    
    [GRAPHIC] [TIFF OMITTED] T5564.056
    
    [GRAPHIC] [TIFF OMITTED] T5564.057
    
    [GRAPHIC] [TIFF OMITTED] T5564.058
    
    [GRAPHIC] [TIFF OMITTED] T5564.059
    
    [GRAPHIC] [TIFF OMITTED] T5564.060
    
    [GRAPHIC] [TIFF OMITTED] T5564.061
    
    [GRAPHIC] [TIFF OMITTED] T5564.062
    
    [GRAPHIC] [TIFF OMITTED] T5564.063
    
    [GRAPHIC] [TIFF OMITTED] T5564.064
    
    [GRAPHIC] [TIFF OMITTED] T5564.065
    
    [GRAPHIC] [TIFF OMITTED] T5564.066
    
    [GRAPHIC] [TIFF OMITTED] T5564.067
    
    [GRAPHIC] [TIFF OMITTED] T5564.068
    
    [GRAPHIC] [TIFF OMITTED] T5564.069
    
    [GRAPHIC] [TIFF OMITTED] T5564.070
    
    [GRAPHIC] [TIFF OMITTED] T5564.071
    
    [GRAPHIC] [TIFF OMITTED] T5564.072
    
    [GRAPHIC] [TIFF OMITTED] T5564.073
    
    [GRAPHIC] [TIFF OMITTED] T5564.074
    
    [GRAPHIC] [TIFF OMITTED] T5564.075
    
    [GRAPHIC] [TIFF OMITTED] T5564.076
    
    [GRAPHIC] [TIFF OMITTED] T5564.077
    
    [GRAPHIC] [TIFF OMITTED] T5564.078
    
    [GRAPHIC] [TIFF OMITTED] T5564.079
    
    [GRAPHIC] [TIFF OMITTED] T5564.080
    
    [GRAPHIC] [TIFF OMITTED] T5564.081
    
    [GRAPHIC] [TIFF OMITTED] T5564.082
    
    [GRAPHIC] [TIFF OMITTED] T5564.083
    
    [GRAPHIC] [TIFF OMITTED] T5564.084
    
    [GRAPHIC] [TIFF OMITTED] T5564.085
    
    [GRAPHIC] [TIFF OMITTED] T5564.086
    
    [GRAPHIC] [TIFF OMITTED] T5564.087
    
    Mr. Whitfield. Thanks, Mr. Hilton.
    Mr. Thompson, you are recognized for 5 minutes.

                   STATEMENT OF JOHN THOMPSON

    Mr. Thompson. Thank you, Mr. Chairman, Ranking Member Rush, 
members of the committee. My name is John Thompson. I direct 
the Fossil Transition Project of the Clean Air Task Force. The 
Clean Air Task Force is a nonprofit environmental group 
headquartered in Boston and with offices in Beijing, Illinois, 
Ohio, Washington, DC, Texas, New Hampshire and Maine. I am from 
our Carbondale, Illinois, office.
    Our mission is to reduce the air pollutants associated with 
climate change and premature death and disease. We work 
throughout the United States and China on these issues, and the 
project I direct works to shift fossil fuels to use 
technologies that have less impact on the environment.
    I want to be clear: worldwide coal use will increase 
dramatically in the coming decades as the standard of living in 
developing nations improves. Increasing energy efficiency, 
greater use of renewables and nuclear power will displace some 
of the CO<INF>2</INF> emissions associated with this growth in 
fossil use but any meaningful climate action must include 
widespread use of carbon and storage. It is the only technology 
that can remove up to 90 percent of the carbon dioxide from 
large stationary sources. Without CCS, it will be difficult, if 
not impossible, to avoid the worst aspects of climate change.
    The Clean Air Task Force is committed to finding ways to 
advance CCS development. Our organization has filed comments in 
support of air permits for coal plants with CCS. We have 
advocated for coal projects that use advanced technology before 
State public service commissions. We have worked to promote 
incentives for CCS and EOR, and we have supported regulations 
that establish CO<INF>2</INF> emission limits that enable CCS. 
We have promoted partnerships between U.S. and Chinese 
companies that would lower CCS costs and encourage projects in 
both countries. I also serve on the National Coal Council, 
which advises DOE on coal-related projects.
    I would like to make a few points this morning. First, the 
value of CCS goes beyond reducing emissions for the purpose of 
climate change. Capture of CO<INF>2</INF> from industrial and 
power sources could be used to expand domestic oil production 
through EOR. Currently, EOR accounts for 6 percent of domestic 
oil production but with additional supplies of carbon dioxide, 
more oil could be produced from domestic oil wells. Estimates 
for the amount of EOR that can be produced domestically have 
grown in recent years. DOE has estimated that approximately 67 
billion barrels of oil are economically recoverable, but to 
produce that 67 billion barrels of oil, we need approximately 
20 billion tons of CO<INF>2</INF>. That is an amount that is 
equivalent to about 30 years of CO<INF>2</INF> emissions from 
about a third of the Nation's coal plants.
    Now, contrary to assertions earlier today, several coal 
plants are proposed or are under construction that show the 
feasibility of CCS at scale and would meet EPA's CO<INF>2</INF> 
emissions standards for fossil plants, and they would use the 
CO<INF>2</INF> for EOR to increase domestic oil production. 
These include Mississippi Power's Plant Ratcliffe in Kemper 
County and Summit Power's Texas Clean Energy Plant in Odessa, 
Texas. Plant Ratcliffe is a 582-megawatts IGCC plant which 
began construction in 2010 and is expected to go into operation 
in 2014. It will gasify lignite, capture 65 percent of the 
CO<INF>2</INF> emissions and sell them for EOR. The Texas clean 
energy plant is a 400-megawatt gross plant that would capture 
90 percent of its CO<INF>2</INF> and produce about 200 
megawatts of power and fertilizer and produce about 2.5 million 
tons of CO<INF>2</INF> to produce 7 million barrels of oil 
annually.
    What I would like to make as points are a couple things 
here. First of all, CO<INF>2</INF> performance standards are 
needed to gain public service commission approval for coal CCS 
projects. After AEP's West Virginia Mountaineer project was 
denied, Mike Morris, the CEO of AEP made a statement that 
included this sentence: ``It is impossible to gain regulatory 
approval to recover our share of costs for validating and 
deploying the technology without Federal requirements to reduce 
greenhouse gas emissions already in place.''
    U.S. EPA considered technical feasibility and cost in its 
draft CCS rule. They concluded CCS was technically feasible, 
and addressed the cost issues through a number of means: 
establishing reasonable standards of 50 percent reduction 
overall through partial capture rather than full capture of 90 
percent. They provided regulatory flexibility. They gave longer 
periods of time to comply with the standards, and I think this 
approach is reasonable.
    I would like to just conclude by saying that the problem 
with H.R. 6172 is that you can't consider technical and 
economic feasibility in a vacuum. You must consider it in the 
context of regulations, and EPA's regulatory approach is 
reasonable, and what is more, contrary to the intent of the 
sponsors of this bill, I believe this will add confusion to 
regulations, which will only help the building of natural-gas 
plants. We need certainty. What H.R. 6172, by creating this 
regulatory confusion, would do would contribute to the 
following problems. It would delay new CCS projects because 
regulators would not know whether they had to meet these 
standards in order to build them. It would delay the economic 
production of oil through EOR, and it would replace 
longstanding precedent of promoting technology that has 
achieved significant public-health and environmental benefits 
with a static, backward-looking approach.
    So I would conclude by saying that what Congress really 
needs to focus on is two things: we need performance standards 
but we also need incentives to move EOR. EPA's regulations 
coupled with further incentives I believe is the correct 
approach. H.R. 6172 would delay that progress. Thank you.
    [The prepared statement of Mr. Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] T5564.088
    
    [GRAPHIC] [TIFF OMITTED] T5564.089
    
    [GRAPHIC] [TIFF OMITTED] T5564.090
    
    [GRAPHIC] [TIFF OMITTED] T5564.091
    
    [GRAPHIC] [TIFF OMITTED] T5564.092
    
    [GRAPHIC] [TIFF OMITTED] T5564.093
    
    [GRAPHIC] [TIFF OMITTED] T5564.094
    
    [GRAPHIC] [TIFF OMITTED] T5564.095
    
    [GRAPHIC] [TIFF OMITTED] T5564.096
    
    [GRAPHIC] [TIFF OMITTED] T5564.097
    
    [GRAPHIC] [TIFF OMITTED] T5564.098
    
    [GRAPHIC] [TIFF OMITTED] T5564.099
    
    [GRAPHIC] [TIFF OMITTED] T5564.100
    
    [GRAPHIC] [TIFF OMITTED] T5564.101
    
    [GRAPHIC] [TIFF OMITTED] T5564.102
    
    [GRAPHIC] [TIFF OMITTED] T5564.103
    
    [GRAPHIC] [TIFF OMITTED] T5564.104
    
    [GRAPHIC] [TIFF OMITTED] T5564.105
    
    Mr. Whitfield. Dr. Lashof, you are recognized for 5 
minutes.

                 STATEMENT OF DANIEL A. LASHOF

    Mr. Lashof. Thank you, Mr. Chairman, Mr. Rush and members 
of the committee. My name is Daniel Lashof. I am the Director 
of the Climate and Clean Air Program at NRDC, and I appreciate 
the opportunity to testify before the committee.
    NRDC strongly opposes H.R. 6172 for a simple reason: It 
would interfere with EPA doing its job, which the taxpayers pay 
it to do and want it to do of protecting public health from 
dangerous carbon pollution. And let us not make any mistake: 
Carbon pollution is dangerous. It is imposing staggering health 
and environmental costs in the United States and around the 
world now, contributing to more severe heat waves, worsening 
smog pollution, fueling more extreme weather that takes the 
lives of thousands of Americans and causes billions of dollars 
in damage. So EPA is moving forward under the law and following 
the science in proposing the standards that it has proposed to 
set performance standards for carbon dioxide emissions from 
power plants.
    Let me just give you one--Mr. Rush commented that this 
seems like deja vu. Let me give you one piece of new 
information. This was released yesterday, and it updates my 
testimony even though it was only submitted a couple days 
before NASA released new data showing the minimal arctic ice 
that we have ever seen since satellites have been monitoring 
this in 1979. The minimum was reached on September 16th. It is 
a full 50 percent below the minimum from 1979 when the records 
started, about 50 percent below the average from the 1980s and 
1990s. And we are confident that this is driven by carbon 
pollution, which is trapping heat in the atmosphere, because 
not only are we setting this record minimum ice extent but the 
thickness of the remaining ice is much lower, making it more 
vulnerable, and the warming that we see is not just in the ice. 
Heat is accumulating in the oceans, which is a major driver of 
this.
    Now, this is the arctic. It is far away. Most Americans 
don't visit the arctic. None of us own land up there except a 
few folks in Alaska, so why do we care about this? The fact is 
that what happens in the arctic doesn't stay in the arctic. The 
changes here are so dramatic and they affect the energy balance 
of the entire earth. They change the position of the jet 
stream. They accelerate the melting of the Greenland ice, which 
does contribute to more rapid sea-level rise, and they 
contribute to enhancing global warming in several other ways 
that I detail in my testimony. So this startling image I think 
should give us all pause, and recognize that we need to allow 
EPA to move forward and do its job.
    Now, I want to comment specifically on the proposed 
regulation that EPA has issued because we have heard language 
about a war on coal, about how the EPA is picking winners and 
losers. The fact is that EPA's proposed standards for carbon 
emissions are fuel and technology neutral. They set a rate for 
all plants that provide the same service of providing baseload 
and intermediate-load electricity to consumers. This is the 
kind of commonsense performance-based standard that I would 
expect Congress to welcome. It is not a command-and-control 
regulation. It doesn't say what technology to use. It is 
completely technology and fuel neutral.
    H.R. 6172 turns that on its head by limiting EPA's ability 
to move forward with that regulation until one particular 
technology is deemed technically and economically feasible. 
Now, as both Mr. Thompson and Mr. Hilton have testified, CCS is 
technically feasible. It is not economically feasible for the 
simple reason that no commercial entity is building new coal-
fired power plants with or without CCS now. The economics in 
the absence of performance standards for carbon dioxide dictate 
that we are meeting our electricity needs through energy 
efficiency, through expansion of renewable energy such as wind, 
and through natural gas, which is much less expensive. So 
Congress can no more repeal those rules of economics than they 
can repeal the physics and chemistry that is driving climate 
change.
    The reality is that we hold no other EPA standards up to 
this single-technology approach. EPA has moved forward for 
decades with performance-based standards, and they should be 
allowed to do their job as the American people would like them 
to do to set sensible performance standards for carbon 
emissions from power plants. Thank you.
    [The prepared statement of Mr. Lashof follows:]

    [GRAPHIC] [TIFF OMITTED] T5564.106
    
    [GRAPHIC] [TIFF OMITTED] T5564.107
    
    [GRAPHIC] [TIFF OMITTED] T5564.108
    
    [GRAPHIC] [TIFF OMITTED] T5564.109
    
    [GRAPHIC] [TIFF OMITTED] T5564.110
    
    [GRAPHIC] [TIFF OMITTED] T5564.111
    
    [GRAPHIC] [TIFF OMITTED] T5564.112
    
    [GRAPHIC] [TIFF OMITTED] T5564.113
    
    [GRAPHIC] [TIFF OMITTED] T5564.114
    
    [GRAPHIC] [TIFF OMITTED] T5564.115
    
    [GRAPHIC] [TIFF OMITTED] T5564.116
    
    [GRAPHIC] [TIFF OMITTED] T5564.117
    
    [GRAPHIC] [TIFF OMITTED] T5564.118
    
    Mr. Whitfield. Thank you.
    Dr. Christy, you are recognized for 5 minutes.

                  STATEMENT OF JOHN R. CHRISTY

    Mr. Christy. Thank you, Chairman Whitfield and Ranking 
Member Rush and members of the committee. I am John Christy, 
Alabama State Climatologist, Professor of Atmospheric Science, 
and Director of the Earth Systems Science Center at the 
University of Alabama at Huntsville. I am a climate scientist 
who builds data sets from scratch to answer questions about 
climate variability and to test assertions people make about 
climate change. That is really what the scientific method is 
all about.
    During the heat wave of late June and early July, high 
temperature extremes became newsworthy. Claims were made that 
thousands of records were being broken and that this is what 
global warming looks like. However, these headlines were not 
based on climate science. As shown in figure 1.3 of my 
testimony, it is scientifically more accurate to say this is 
what Mother Nature looks like since heat waves even worse than 
these happened before greenhouse gases were increasing like 
they are today.
    Now, it gives some people great comfort to offer a quick 
and easy answer when the weather strays from the average rather 
than struggle with the real truth, which is, we don't know 
enough about the climate to even predict these kinds of heat 
waves as Nature magazine itself reported yesterday.
    More evidence is available now to suggest that the climate 
is not as sensitive to extra greenhouse gases as previously 
thought. A simple comparison between climate model output and 
observation makes this point. In figure 2.1 of my written text, 
I plotted 38 of the very latest climate model simulations. The 
models tend to overreact to carbon dioxide by warming the earth 
much more than what has actually happened. This has bearing on 
the recent 33-year record low of arctic sea ice coverage that 
you saw previously. Model projections warmed by CO<INF>2</INF> 
show somewhat more warming than in that region in the 
observations but not too much in figure 2.2.
    It is tempting to believe that the models are correct and 
the CO<INF>2</INF> warming is the main cause of melting the 
ice. However, when compared with the area of sea ice around 
Antarctica, where as shown in figure 2.3 the temperature is not 
increasing and the sea ice is not decreasing. The models fail 
the test. The CO<INF>2</INF> warming in climate models doesn't 
explain what we see. I cite research in my testimony which 
again points to natural variability as the main cause.
    I encourage you to propose legislation based upon what 
observations show rather than speculative climate models. 
Basing legislation on observations means addressing the large 
year-to-year variations like droughts and floods, which will 
always occur and which will continue to cause economic 
distress. When it comes to legislation and regulatory actions, 
there really is nothing that will definitively alter whatever 
the climate is going to do. However, I suspect there will be 
some discernible negative economic consequences if energy costs 
are made to rise.
    As more CO<INF>2</INF> is released back into the 
atmosphere, there are benefits that are often overlooked. Most 
notable of these is the invigoration of plant life on which we 
and the rest of the animal world depend for food. Atmospheric 
CO<INF>2</INF> fundamentally is plant food and therefore our 
food. In my opinion, higher food production is a benefit to 
society and should be factored in any cost-benefit analysis.
    Now, with all due respect to former President Bush, in my 
opinion, he was not accurate to say in 2006 that we are 
addicted to oil. Oil and other carbon-based energies are simply 
the affordable means by which we satisfy our true addictions, 
and those are long life, good health, plentiful food, Internet 
services, freedom of mobility, comfortable homes with heating, 
cooling, lighting and even colossal entertainment systems. 
Carbon energy has made all those possible.
    Today, carbon energy provides about 87 percent of the 
world's energy demand so rising CO<INF>2</INF> emissions can be 
an indicator that a nation is providing energy for its people, 
energy which allows them to live longer, healthier and more 
prosperous lives.
    But, and I will close with this unpleasant thought, 
demanding a reduction in worldwide carbon emissions and without 
affordable and reliable energy alternatives means reducing the 
opportunities for many of our fellow world citizens to escape 
their impoverished conditions.
    I thank you for your time and I will be happy to answer 
questions.
    [The prepared statement of Mr. Christy follows:]

    [GRAPHIC] [TIFF OMITTED] T5564.119
    
    [GRAPHIC] [TIFF OMITTED] T5564.120
    
    [GRAPHIC] [TIFF OMITTED] T5564.121
    
    [GRAPHIC] [TIFF OMITTED] T5564.122
    
    [GRAPHIC] [TIFF OMITTED] T5564.123
    
    [GRAPHIC] [TIFF OMITTED] T5564.124
    
    [GRAPHIC] [TIFF OMITTED] T5564.125
    
    [GRAPHIC] [TIFF OMITTED] T5564.126
    
    [GRAPHIC] [TIFF OMITTED] T5564.127
    
    [GRAPHIC] [TIFF OMITTED] T5564.128
    
    [GRAPHIC] [TIFF OMITTED] T5564.129
    
    [GRAPHIC] [TIFF OMITTED] T5564.130
    
    [GRAPHIC] [TIFF OMITTED] T5564.131
    
    [GRAPHIC] [TIFF OMITTED] T5564.132
    
    [GRAPHIC] [TIFF OMITTED] T5564.133
    
    [GRAPHIC] [TIFF OMITTED] T5564.134
    
    [GRAPHIC] [TIFF OMITTED] T5564.135
    
    [GRAPHIC] [TIFF OMITTED] T5564.136
    
    [GRAPHIC] [TIFF OMITTED] T5564.137
    
    [GRAPHIC] [TIFF OMITTED] T5564.138
    
    [GRAPHIC] [TIFF OMITTED] T5564.139
    
    [GRAPHIC] [TIFF OMITTED] T5564.140
    
    [GRAPHIC] [TIFF OMITTED] T5564.141
    
    [GRAPHIC] [TIFF OMITTED] T5564.142
    
    [GRAPHIC] [TIFF OMITTED] T5564.143
    
    [GRAPHIC] [TIFF OMITTED] T5564.144
    
    [GRAPHIC] [TIFF OMITTED] T5564.145
    
    [GRAPHIC] [TIFF OMITTED] T5564.146
    
    [GRAPHIC] [TIFF OMITTED] T5564.147
    
    [GRAPHIC] [TIFF OMITTED] T5564.148
    
    [GRAPHIC] [TIFF OMITTED] T5564.149
    
    [GRAPHIC] [TIFF OMITTED] T5564.150
    
    [GRAPHIC] [TIFF OMITTED] T5564.151
    
    [GRAPHIC] [TIFF OMITTED] T5564.152
    
    [GRAPHIC] [TIFF OMITTED] T5564.153
    
    [GRAPHIC] [TIFF OMITTED] T5564.154
    
    Mr. Whitfield. Thank you, Dr. Christy, and thank all of you 
for your opening statements. At this time I will recognize each 
member for 5 minutes of questions, and I will begin by 
recognizing myself.
    Mr. Trisko, Dr. Lashof in his opening statement made the 
comment that the standard under the proposed greenhouse gas 
regulation is a commonsense, performance-based, fuel-neutral 
standard. Now, it is my understanding that that proposed 
regulation reverses 40 years of precedent at EPA in that they 
are requiring coal to meet the same standards as any other 
fuel, and in the past they had standards for individual fuels--
gas, coal, whatever. Is that your understanding?
    Mr. Trisko. In general, yes, Mr. Chairman, and let me 
explain the basis for this. We are talking really about setting 
particular standards for different types of generation 
technologies. EPA has regulated coal for the past 40 years 
under subpart (d)(A) regulations covering steam electric-
generating units. These are basically large boilers utilizing 
coal or oil. There are not many oil boilers now being built. 
The first coal-based NSPS standard was set by EPA in 1971 
pursuant to Section 111 of the 1970 Clean Air Act Amendments. 
That coal-based standard was subsequently revised by EPA in 
1978 pursuant to the 1977 Clean Air Act Amendments that added 
the so-called percent reduction clause.
    Mr. Whitfield. Excuse me. I asked a question and I am sorry 
to interrupt, but we all get caught up in this time clock, but 
the bottom line was that in this greenhouse gas regulation, the 
same emission standard was set for every fuel, and that had 
never been done before.
    Mr. Trisko. What had never been done before, Mr. Chairman, 
was to combine subpart (d)(A) for steam electric-generating 
units--coal or oil--with subpart (kkkk) which covers natural 
gas combined cycle units. Those had always been subject to 
separate, discrete standards.
    Mr. Whitfield. But not under this regulation?
    Mr. Trisko. But not under this regulation.
    Mr. Whitfield. And that is a significant change, and 
because of that, we cannot build a new coal-powered plant in 
the United States because the technology is simply not there at 
an affordable price. Is that correct?
    Mr. Trisko. Yes, Mr. Chairman, because in effect this 
regulation raises the cost of electric generation from coal 
plants by 80 percent but does not impose any increase in cost 
on natural gas combined cycle. Therefore, only natural gas 
combined cycle plants would be constructed in the future.
    Mr. Whitfield. So in my opinion, this is not a fuel-neutral 
proposed regulation.
    Now, we recognize that it only applies to new coal-powered 
plants but what creates additional problems is that the Utility 
MACT applies to existing coal-fired plants, and in order to 
meet those standards, they are going to have to modify some of 
the existing plants, and there is some genuine concern that if 
you modify, then you might be classified as new. Is that your 
understanding, Mr. Voyles?
    Mr. Voyles. Yes, sir, Mr. Chairman, that is my 
interpretation of how we read the rules, that you make 
modifications, it does subject you to different parts of the 
standard.
    Mr. Whitfield. Yes, so, you know, when they were up here 
testifying, Lisa Jackson and others, they were talking about 
oh, this applies only to new plants but they had already pushed 
through the Utility MACT, as I said, that applies, makes you 
modify existing plants, and once you modify, then you have got 
to meet the new standard. So I think the President's comment 
when he was running for President clearly shows that there is a 
bias against coal and they are following through with that.
    Now, Mr. Trisko, you are here on behalf of United Mine 
Workers. Is that correct?
    Mr. Trisko. Yes, sir.
    Mr. Whitfield. And you read yesterday that Alpha Resources 
is closing down eight mines, and I am assuming your membership 
is quite concerned about the way things are happening to the 
coal industry.
    Mr. Trisko. These are not happy times in coalfields 
generally, Mr. Chairman.
    Mr. Whitfield. And, you know, in my opening statement, I 
made the comment that even Lisa Jackson when she was here and 
she said well, if other countries don't do the same thing on 
greenhouse gas, then our doing it is not going to make any 
difference. But the thing that really upsets me is that all 
these analyses talk about the benefits on health improving 
because of regulations but they never explore, look at, 
consider in any way the negative impact on the health care of 
the thousands of people in this industry that are losing their 
jobs, and they have indicated, no, we don't consider that, 
which I do not think is a fair and balanced playing field.
    My time is expired. I recognize for 5 minutes Mr. Rush.
    Mr. Rush. Dr. Lashof, Mr. Trisko indicated--he spoke 
disparagingly of the standards that the EPA is setting, and he 
also indicated that this plant that had modifications and that 
that plant would be classified as a new plant and it would 
suffer some negative responses, would have to newer, higher 
standard because of the new reclassification. How do you 
respond to some of the things he said?
    Mr. Lashof. Thank you, Mr. Rush. Well, you know, it is 
funny because the EPA is actually very explicit in its proposal 
in saying that it does not apply to modified plants. They have 
not proposed any standards that apply to the existing fleet, 
and the argument that the existing plants couldn't meet the 
current standard is irrelevant because the proposal only 
applies to new plants. So, you know, the problem here with this 
legislation is, it doesn't actually do anything to promote CCS. 
It just blocks other solutions and cost-effective ways of 
reducing pollution.
    Mr. Rush. I guess that is really my point. I am from 
Illinois. Illinois is a coal-producing State. You know, the 
President is from Illinois, and I don't think that the 
President is waging an attack on coal. I think the President is 
taking some postures under his administration to make sure that 
coal is usable in the future and that it is not only energy, we 
can use coal for our energy needs but also that coal does not 
have to be harmful to the climate and to our health.
    Mr. Thompson, let me ask you this. Can you talk about some 
of the advances in clean-coal technology that has occurred 
under the President's administration?
    Mr. Thompson. Well, I think perhaps the largest advance has 
just been the plants that have broken ground. I have mentioned 
two, the Kemper plant, which broke ground in 2010, and the 
Texas Clean Energy Project, which will break ground in 2013 and 
go into operation in 2017. There has been a lot of funding for 
Future Gen and projects like that, loan guarantees that help 
advance coal, but obviously there is more work that needs to be 
done, and I think Congress should pick up areas that I alluded 
to like incentives to promote enhanced oil recovery. There is a 
lot of work that can be done on both sides of the aisle.
    Mr. Rush. Mr. Hilton, what are the most important things we 
should do to stimulate CCS development and deployment?
    Mr. Hilton. I think there is really I would say four 
things. You know, we do need proper regulatory structure that 
provides guidance to States for permitting and for funding of 
R&D, and we need financial support. You know, grants don't go 
far enough. Kemper goes ahead because it has got a 20 percent 
rate increase associated with it. All the rest of the projects 
are struggling. But then we have the issues, that sequestration 
is not going to happen until we resolve the issue of financial 
liability and pore ownership, you know, because you can't--so I 
think those are the four things.
    Mr. Rush. Those are the things that you think that this 
committee could be focused on that would really be of help to 
the industry at large. Is that correct?
    Mr. Hilton. Yes.
    Mr. Rush. Mr. Lashof, how important is CCS technology to 
ensuring a long-term future for coal?
    Mr. Lashof. Well, NRDC has supported development of CCS 
technology. We supported the Upton-Boucher bill as part of 
comprehensive legislation that was passed in the last Congress, 
and as Mr. Thompson said, there are applications around the 
world so I think that there is a real need for the United 
States to be a leader in this technology and a big market for 
CCS.
    The reality, though, is that the bill that this hearing is 
about would set up a catch-22 test because it would block the 
very standards that would actually create an incentive for the 
industry to invest in making that technology commercial.
    Mr. Rush. Thank you.
    Mr. Chairman, I yield back.
    Mr. Barton [presiding]. Thank you. The gentleman's time is 
expired. The Chair now recognizes himself for 5 minutes.
    Dr. Christy, you have got a very illustrious resume both 
academically and professionally. Are you now or have you ever 
been a part of the IPCC process?
    Mr. Christy. The IPCC, yes, and about every year including 
being lead author in one of the assessments.
    Mr. Barton. So you would be acknowledged by the U.N. 
officials that operate that as a climate scientist?
    Mr. Christy. I have my certificate that says I am a Nobel 
Peace Prize winner.
    Mr. Barton. But you obviously do not appear to share some 
of the more generic, popularized conclusions that they have 
promoted. Is that a fair statement?
    Mr. Christy. That is a fair statement, yes.
    Mr. Barton. OK. How do you get along with Dr. Mann?
    Mr. Christy. I don't communicate with him since that time 
back in--we were lead authors together back in 2001.
    Mr. Barton. Is it fair to state--I mean, the popular 
presentation is that there are thousands of climate scientists 
and they all agree that the world is going to hell because of 
CO<INF>2</INF> and that the sooner we start restricting 
CO<INF>2</INF>, the better. Obviously you don't share that 
opinion. How many climate scientists are there like you, and 
are you ever heard or welcomed in those discussions?
    Mr. Christy. Rarely am I welcomed or heard in those kinds 
of discussions but I would say that, you know, it depends on 
how you define a climate scientist, but it is----
    Mr. Barton. Well, however you define it, you obviously are 
one.
    Mr. Christy. I am one. Yes, I actually build climate data 
sets from scratch. I qualify as a working-stiff climate 
scientist. There aren't very many of us, by the way. Other 
people that like to use the term, you know, have some oblique 
relationship to how climate might impact something but in terms 
of the hard core, there aren't many of us, and I would say that 
they are a lot less confident about what climate models can do 
and can tell us, and the Nature article that just appeared 
yesterday was very clear about the lack of ability of climate 
models to tell us what is going on with the world and what will 
go on with the world.
    Mr. Barton. Is it fair to state, in your opinion and the 
scientists that share your opinion, that the science on 
CO<INF>2</INF> made by man being a primary contributor is 
unsettled and that it is not yet conclusive that manmade 
CO<INF>2</INF> is a primary contributor to global warming?
    Mr. Christy. That science is unsettled, and I think the 
clearest example of that is in the three figures I put in the 
written testimony that show what the real world is doing, what 
climate models say it is doing or should be doing, and the two 
don't agree.
    Mr. Barton. Dr. Lashof, we obviously are very pleased that 
you are here. We do want to have a balanced hearing. 
Unfortunately, there is only one of you and you are 
outnumbered, but we do appreciate you being here. When you 
talked about the performance-based standard, Chairman Whitfield 
pointed this out, but I think it bears repeating. We could do a 
performance-based standard based on wind power or nuclear power 
that would be zero, and those are the only two that could 
comply with it. On the other hand, we could do a performance-
based standard set on the 1971 standards that were first put 
out under the 1970 Clean Air Act and all the conventional power 
sources could comply with that. So it is a little misleading to 
say we are just asking for performance-based standard when you 
know and everybody else at this table knows that the only ones 
that comply with the proposed EPA standard are natural gas, 
nuclear and wind power. No coal plant can comply.
    Mr. Lashof. Well, Mr. Barton, the EPA's authority is to 
regulate emissions from fossil fuels.
    Mr. Barton. But you admit what I said is true?
    Mr. Lashof. No, I don't, because we actually believe EPA 
could set a tighter standard than it has.
    Mr. Barton. So you are saying that you think there is an 
existing coal technology that is economic that can comply with 
this standard?
    Mr. Lashof. Well, as Mr. Thompson testified, there are two 
plants that are under construction that would meet the 
standard, and----
    Mr. Barton. Well, what is the subsidy to the clean-coal 
plant down in Texas? How many--I would almost say billions of 
dollars, and I support that plant. But on its own merit, it 
can't compete without the tax subsidies and the direct 
subsidies to it. Isn't that a fact?
    Mr. Lashof. That may be true but----
    Mr. Barton. That is not may be true; it is true.
    Mr. Lashof. Well----
    Mr. Barton. It is true.
    Mr. Lashof [continuing]. I think there are plants 
potentially that have enhanced oil recovery opportunity that 
may be competitive.
    Mr. Barton. My time is expired. I want to ask Mr. Voyles a 
question. What is the most economic clean-coal technology that 
is currently available today for commercialization, and how 
much does it add to the cost of the best coal technology that 
we already have in place--power plant generation technology?
    Mr. Voyles. In our case, the best technology is the recent 
unit that we just put in service in 2011. It is a supercritical 
coal-fired unit that has got all the available technology. It 
actually received an investment tax credit for clean-coal 
technology and it has been operating now for 2 years and it 
actually produces 20 to 30 percent less CO<INF>2</INF> than 
other technologies.
    Mr. Barton. And how much additional does it cost than the 
technology that it is replacing?
    Mr. Voyles. Because of its efficiency, it runs all in, in 
the $30-to-$40-a-megawatt range. It is a little bit more 
expensive because of the amount of controls that are on it but 
significantly less than what you would experience if you put in 
carbon capture and sequestration.
    Mr. Barton. Well, the number that I have been given is at a 
minimum----
    Mr. Rush. Mr. Chairman, we have to have regular order.
    Mr. Barton. You are exactly right, Mr. Rush.
    Mr. Rush. I thought you were going to stop at some point.
    Mr. Barton. You couldn't be more right, so as soon as I 
agree with you that you are right, I am going to recognize Mr. 
Doyle. Mr. Doyle is recognized for--is it Mr. Green instead of 
Mr. Doyle? I recognize the gentleman from Texas, Mr. Green, for 
5 minutes.
    Mr. Green. I am finally getting the rules down. If I come 
when the gavel goes down, when I come back they will let me 
speak. Thank you, Mr. Chairman.
    I have a district in Texas. We have refineries and chemical 
plants, and I know the EPA, when they exempted coal, they 
grandfathered in the existing coal facilities, and yet the 
tenor of this hearing and what we hear so much is that all 
these layoffs, whether it be Alpha or a lot of them, are based 
on the Obama administration and EPA. There is not a coal plant 
that in existence that will have to deal with carbon under the 
EPA, and yet Canada is requiring their coal plants to retrofit. 
I hope that when the EPA gets around to my five refineries and 
chemical plants in our district that they would let us have the 
same grandfather clause. But that is the concern I have.
    And I have an area that produces pet coke, not anything 
near what coal does, but we have not been able to use that pet 
coke in our own country because of the pollution problems and 
burning it, and we export it, and I support exporting coal. In 
fact, I know there is controversy over a port up in Washington. 
So, you know, is the export market, could that keep our 
coalmines open whether it be in West Virginia or Pennsylvania 
or western United States? Anyone from the coal industry.
    Mr. Trisko. Congressman Green, the United States consumes 
approximately 1 billion tons of coal annually, and the 
predominant customer for that coal is the electric utility 
industry, thus the cause of concern that we have expressed here 
today. There is a very robust international market in both 
steam coal and metallurgical coal with low-cost producers from 
countries such as Australia being able to in effect outcompete 
the United States. Now, our exports have increased a good deal 
over the course of the last 5 years but at most we are talking 
about an export market that is on the order of 60 to 70, 80 
million tons a year against that 1-billion-ton utility demand.
    Mr. Green. I guess I am trying to understand that if it is 
a billion tons that is used in existing coal facilities now and 
not one of them is being threatened to shut down because of 
carbon capture, it seems like we would continue. Now, I know 
there is a lot of things that enter into including the cheap 
price of natural gas. I am a big supporter of nuclear power. 
The problem is, if we didn't have loan guarantees and even 
questionable then, we wouldn't have a nuclear power plant 
because of the low price of natural gas. So I think it is a lot 
of market conditions, and coming from where I am, I can't not 
support natural gas expansion.
    Mr. Thompson, you mentioned that several States already set 
emission standards for carbon capture for new coal-fired 
plants. Can you elaborate? How do companies plan to comply with 
these standards?
    Mr. Thompson. There are several States that already have 
emission limits that are similar to what U.S. EPA has proposed. 
Some of them are like California and Washington State. There is 
a proposed coal project in California called HECP that seeks to 
meet that standard and do so with using carbon capture and 
storage. In places such as my State, Illinois, there is 
actually a clean-coal portfolio standard that seeks to promote 
coal projects with 50 percent capture. And some of those have 
not, I think are unlikely to move forward in Illinois simply 
because the price of gas is so low, and that is a real 
challenge.
    But what I think is really important to understand is that 
what projects need is certainty, and the regulations that EPA 
has proposed are quite reasonable: 30 years to comply if you 
want to choose that route in some cases for new plants. The 
challenge with H.R. 6172 is that it introduces confusion about 
whether or not EPA would be allowed to issue those very 
reasonable standards, and in an era of low natural-gas prices, 
that uncertainty actually, I would submit, favors the expansion 
of gas because someone who wants to finance a project or is 
being asked to finance a project is going to say well, you 
know, I am not really sure if there is some----
    Mr. Green. I am almost out of time, and I understand if 
somebody is cost-benefiting it out today and you are building a 
new power plant, you know, natural gas will get there. Wind, 
solar, nothing will get there without substantial tax 
incentives except for natural gas.
    I am a big supporter of enhanced oil recovery, and we are 
trying to grow that in Texas because we have a lot of fields we 
can do, and do you have any suggestions on how we can further 
incentivize enhanced oil recovery, use some of that carbon from 
other States? And I know there is a potential pipeline from 
Mississippi into southeast Texas where our refineries are to be 
able to deal with that.
    Mr. Thompson. A group of environmentalists, coal companies, 
chemical companies have gotten together under the umbrella of 
the National EOR initiative and recommended several 
recommendations. I will highlight one, and that is to actually 
to use a portion of the tax revenue that would have--that comes 
from new oil development and put that back into subsidizing 
some of the cost of CCS capture. That would allow a lot of 
projects to move ahead. So I would direct this committee to 
look at the National EOR Initiative's recommendations. I think 
that is a great starting point.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Barton. I just want the record to show that I gave you 
extra time, but it was only because you are from Texas. If you 
had been from Illinois or Pennsylvania, I would have been on 
you.
    Mr. Green. Well, maybe Mike can have a Texas drawl.
    Mr. Barton. We want to recognize the gentleman from the 
Cornhusker State, Mr. Terry.
    Mr. Terry. Since I am from the Cornhusker State, do I get 1 
minute?
    Mr. Barton. It depends on how you are behaving.
    Mr. Terry. Thank you.
    Mr. Hilton and Mr. Thompson, I want to ask you, as I am 
trying to sort through this, I haven't been able to resolve one 
specific question, and that is whether or not technology exists 
to meet the proposed standards, and Mr. Hilton suggests that it 
is a work in progress. Mr. Thompson, you are saying they are 
already building them. So Mr. Hilton, you start first. How do I 
resolve this as a Cornhusker?
    Mr. Hilton. Well, the first part is, you know, is that it 
is technologically feasible. As far as getting to the point 
where it is commercially available, we need the proof that the 
technology, that what we guarantee and what we are going to do, 
and there are no plants currently operating out there right now 
at commercial scale. Kemper will reach commercial scale because 
it has been able to get the financing, and this is what I have 
said that CCS needs. It has a 20 percent rate increase. Summit, 
if it goes ahead, because it doesn't have financing yet--it has 
an MOU with Sinopec to sell part of the project and get Chinese 
financing--it may go ahead and this is the point that I was 
making. There are no projects out there that are going ahead on 
their own with the financing package that is, you know, there. 
And that is what we need as suppliers to be able to sell and 
guarantee the performance. Southern also has a unique thing. It 
is their technology and they are a self, if you will, 
guarantor.
    Mr. Terry. Mr. Thompson?
    Mr. Thompson. Thanks. I also agree with Bob about the 
technology is technically feasible. Here is the difference, I 
think, that maybe you are alluding to. Kemper and the Texas 
Clean Energy Project are using pre-combustion capture 
technology. That has been around for 30 years commercially 
available. If you look at my written statements, you will see 
what Mississippi Power said in support of that. What Bob is 
talking about is the post-combustion capture, and his 
technology from his company, I respect his opinion that it is 
not ready yet but there are projects in Texas like the 
Trailblazer Project. It is a proposed project, would be post-
combustion capture but it is not moving ahead, fully permitted, 
that would use this post-combustion capture technology and they 
have been able to get warranties from either MHI or Fluor, I 
can't remember which, to do post-combustion.
    Mr. Terry. Let me interrupt, because you said something in 
a previous answer that stood out to me from Nebraska versus 
Texas is, we don't have oil fields, and you said having that 
available is a key component to its fiscal viability. So what 
about our northern coal-fired plants?
    Mr. Thompson. Pipelines. We have been supporters----
    Mr. Terry. Oh, we have tried that. They are against it.
    Mr. Thompson. Well, not everyone is. Seven hundred miles of 
pipelines have been proposed by Denbury to go from the Gulf 
Coast area through to Kentucky, Indiana, Illinois, and 
legislation has been passed in those three States to provide 
eminent domain authority to make that happen. So it is not 
easy, but that is my short answer.
    Mr. Terry. All right. Well, I appreciate that.
    Then back to you, Mr. Hilton. You had mentioned the issue 
of there is liability issues. Can you in a minute and 15 
seconds tell me what the liability issues are specifically and 
what other barriers in addition to liability?
    Mr. Hilton. OK. The liability issue is obviously if you 
sequester, there is going to be need typically in accounting to 
have some liability associated with having put that 
CO<INF>2</INF> in a reservoir, so we expect that that is going 
to have to be dealt with just like any other waste that has 
happened. It may even end up that way in EOR before it is over, 
before things are done. So, I mean, there is a liability issue. 
There is an issue of pore ownership, you know, who owns the 
pore structure you are putting the CO<INF>2</INF> in, and in 
the history of the United States, it is the classic, you own to 
the center of the earth under your house and so, you know, if 
you add in paying royalties to put CO<INF>2</INF> under 
people's houses if they will let you, you know, you have to get 
permission. This is a major issue. So I think those are the 
really two biggest issues that we are facing.
    Mr. Terry. All right.
    Mr. Thompson. I would just say that with EOR, which could 
account for a third of the Nation's coal fleet, there are no 
liability issues. We have injected over a billion tons of 
CO<INF>2</INF> in Texas since the 1980s. So there are ways of 
addressing this issue even within the EOR context.
    Mr. Barton. The gentleman's time is expired. We now 
recognized the gentleman from the Keystone State, the winner of 
the Congressional baseball game manager, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman.
    Thank you for your all your testimony. I have read it. Mr. 
Trisko, you mentioned in your testimony a 2008 wires-charge 
bill, which I was a cosponsor of, by the way, which would have 
provided path forward for CCS funding. Can you tell us a little 
bit about where that bill ended up?
    Mr. Trisko. Congressman Doyle, the bill eventually ended up 
as Section 113 of the Waxman-Markey bill, the larger climate-
change bill, and while that bill passed the House, the 
companion legislation in the Senate did not fare as well.
    Mr. Doyle. Thank you.
    Mr. Hilton, in your testimony, you refer to several 
commercial-scale CCS demonstrations planned in other 
countries--the U.K., European Union, even China. Can you tell 
us how these projects are being funded?
    Mr. Hilton. Well, the U.K. projects are being funded by a 
billion-pound fund the U.K. government is putting up. Most of 
the European projects are a combination of E.U. funding from 
what is called the NER-300, which is a grant for allowances 
which can be sold and then funded, which is somewhere on the 
order of $2-1/2 billion to $4 billion euros worth of funding. 
The Chinese projects are a little bit, I am going to say, 
different. The Chinese projects get funded because the Chinese 
government particularly says that project will go ahead and 
where the funding is actually comes from is harder.
    Mr. Doyle. From the Chinese government?
    Mr. Hilton. Right.
    Mr. Doyle. What about the CCS projects here in the United 
States like the Summit plant? How is that being financed?
    Mr. Hilton. Well, the Summit plant has a significant grant 
from the government. It is going to do EOR but its financing, 
it looks like it will come from selling part of the project as 
an MOU with Sinopec and Chinese banks.
    Mr. Doyle. Right. So would you say there is an argument 
here then for a commitment to Federal funding for CCS 
demonstration projects like we provided in the stimulus bill? 
In other words, we need to step up to the plate, don't we?
    Mr. Hilton. Absolutely.
    Mr. Doyle. Thank you.
    This question is for several of the panelists. There has 
been a lot of testimony this morning about the state of CCS 
technology development and the need for better drivers of CCS 
technology. Many of you have addressed this in your testimony 
already, but I want to ask you what you think would be the best 
driver for commercialization of affordable CCS technology. 
Would it be EPA regulation? Would it be a carbon tax, cap and 
trade or something else? Just very quickly because I have some 
more to say. Go ahead.
    Mr. Trisko. Congressman Doyle, we would again advocate 
consideration of the wires-charge approach. That is a non-
budget way to raise $10 billion to support CCS demonstrations. 
Until we have commercial-scale demonstrations, there will not 
be a regulatory structure that will allow that technology to 
proceed, and given the state of the Federal budget, which we 
are all acutely aware, we need to find a non-budget source of 
these revenues.
    Mr. Doyle. Thank you.
    Mr. McCullough. Yes, I first of all refer you to the CURC-
EPRI roadmap that recognizes the technology roadmap to get to 
cost-effective, reliable CCS capture. We would also support the 
funding that Mr. Trisko just----
    Mr. Doyle. Great. I don't mean to rush you but I have some 
more to say.
    Go ahead, Mr. Voyles.
    Mr. Voyles. And I would only add to what Mr. McCullough 
says by saying--and we have talked about the Kemper County 
plant. That plant has been progressing without the imposition 
of any standards so the industry is investing in carbon 
research, trying to develop technology, and that should 
continue.
    Mr. Doyle. Mr. Hilton?
    Mr. Hilton. Clearly, I think a wires charge or similar 
thing.
    Mr. Thompson. A combination, both performance standards and 
incentives that promote enhanced oil recovery.
    Mr. Lashof. Yes, I would say we need the standards to make 
it clear that if you are going to build fossil plants, you are 
going to need CCS in the future to motivate people to invest, 
and then we need support.
    Mr. Doyle. Dr. Christy?
    Mr. Christy. Yes, I would just say please don't raise the 
rates of Alabamians for utilities.
    Mr. Doyle. OK. Thank you.
    This week, Mr. Chairman, in the House, our friends on the 
other side are going to bring a bill to stop the war on coal to 
the House Floor, and among other things, the bill prohibits any 
acknowledgement that global warming is caused by carbon 
emissions and it bars the Federal Government from setting any 
kind of carbon-emission limit. The bill we are debating here in 
the subcommittee also would bar the Federal Government from 
setting any kind of limit on carbon pollution. In 2009, 
Democrats passed a stimulus bill that provided $3.4 billion to 
CCS funding. That was 49 percent of all the energy funding in 
the stimulus bill went to CCS. Half of all that funding, CCS. 
That bill was denigrated, maligned and smeared by many in this 
House chamber. Also in 2009, we took up a cap-and-trade bill 
that had $60 billion for CCS funding as well as the $10 billion 
in wire charges that Mr. Trisko referred to in his testimony. 
That bill as well was smeared, denigrated and maligned by many 
on this House Floor.
    So here we are today dealing with regulations that are a 
result of court-imposed deadlines and we are being told that 
the industry doesn't have commercially available tools to meet 
these limits. Well, whose fault is that? I would just say to my 
friends, when you want to bring a bill forward to invest--you 
know, you have to do both. You can't just----
    Mr. Gardner [presiding]. The gentleman's time is expired.
    Mr. Doyle. No, I would like 10 more seconds.
    Mr. Gardner. I am not from Texas.
    Mr. Doyle. Let me just say this to my friends. I have 
sympathy for what is going on in the coal industry. Bring a 
bill to the floor that says we need commercially available 
technology before we can do certain regulations, but where is 
the money to go with it? There is no commitment to fund the 
technology. We do this in nuclear and we do this in other 
areas. You know, show me the money. We had $60 billion on the 
table and that got voted down. So don't just come here and say 
you can't do something because the technology is not available.
    Mr. Gardner. The gentleman's time has expired. The 
gentleman from Texas is recognized for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman, and I do feel 
obligated to point out that during the first 2 years of the 
Obama administration when cap and trade, Waxman-Markey passed 
and the stimulus bill did pass, of course the President's party 
controlled all the levers of government. Whatever this side of 
the dais wanted was absolutely irrelevant because the Democrats 
had a 50-vote majority in the House and a 60-vote filibuster-
proof majority in the Senate. It was the Senate that was unable 
to do Waxman-Markey because after they saw the public angst 
over Waxman-Markey being shoved through the floor of the House 
the last day of June 2009, no Senator had the courage to step 
forward and say let us talk about this. They wanted to withdraw 
from that fight. Whether it was right or wrong, I mean, that is 
what happened. Blame us if you want if you can't find any other 
reason but the reality was, 60 Democratic votes in the Senate 
and the President could not get that bill even considered in 
the other body. So don't blame House Republicans. I didn't want 
that. I thought it was a bad idea. I thought it was a bad idea 
on several levels. I will still vote against it if you are able 
to bring it up again. But don't blame House Republicans for 
your inability to get that done because you know very well that 
thing was forced through this committee, subcommittee, full 
committee and the floor of the House and it was in fact to the 
detriment of your side because, honestly, you never recovered 
the public confidence after you did that. It was done in the 
worst possible way, and I would hope whatever happens with 
energy legislation going forward it is constructed in a 
bipartisan fashion. I think that is the lesson a lot of us can 
take away from the last 3 \1/2\ years.
    Mr. Hilton, I have a question for you, because when Michael 
Williams was Chairman of the Texas Railroad Commission, I think 
he came to this committee and testified either in committee or 
in a briefing, and he talked about how the State of Texas had 
taken title. You were answering some questions from Mr. Terry 
about the liability issues. The State of Texas, as I understand 
it, took title to the carbon that was pumped back down for 
carbon sequestration. Is that not correct?
    Mr. Hilton. Yes, that is correct.
    Mr. Burgess. Does that help with the liability issue?
    Mr. Hilton. It helps in Texas.
    Mr. Burgess. Right. Has any other State stepped forward and 
done that?
    Mr. Hilton. I don't believe so.
    Mr. Burgess. Now, Texas, of course, is a little bit 
different because we are our own country. We don't have Federal 
lands; we have State lands. So there actually is the 
availability of State land to do that. In other areas of the 
country where there are large amounts of Federal lands, has 
there been any discussion about the Federal Government taking 
title to the carbon that might be injected under Federal lands?
    Mr. Hilton. I can say it has been suggested. I don't know 
if the Federal Government itself has discussed it, but, I mean, 
people have talked about it, of course.
    Mr. Burgess. But even there with the liability cloud 
removed as it was in Texas, I mean, it has been a slow go. It 
is not something that has really been--there hasn't been a lot 
of enthusiasm for it.
    Dr. Christy, welcome back to our committee. You have spent 
a lot of time here over the years. I really appreciate the 
graphic representation that you brought to us today. It is 
fascinating because, I mean, I lived through at least half of 
it so I actually remember those years very well. There does 
seem to be a certain amount of randomness to the temperature 
variations that you described. There also seems to be some 
clustering. Are you able to make any predictions about, is this 
occurring on a cyclic basis? I mean, clearly some of the most 
startling temperatures were in the early part of the last 
century as opposed to these latter years when the carbon 
numbers were supposedly going up. Are you able to make any 
predictive statements based upon the data that you have 
collected?
    Mr. Christy. You know, my most confident predictive 
statement is that if it happened before, it will happen again 
and probably worse.
    Mr. Burgess. Well, history always repeats itself right up 
until the time that it doesn't.
    Mr. Christy. Yes. In fact, even on the arctic sea ice 
thing, I think it would be interesting to note that over 
western civilization the arctic has probably been warmer than 
it is today.
    Mr. Burgess. Well, let me ask you a question because it did 
come up that because of the reliance on natural gas when the 
price collapsed of natural gas in 2008, apparently carbon 
dioxide levels are lower now than what they were predicted to 
be. Is that correct?
    Mr. Christy. In this country, they have fallen, yes.
    Mr. Burgess. Is that happening worldwide or is it just this 
country?
    Mr. Christy. I believe that is not the case worldwide. It 
is still going up thanks to China and India, who are really 
burning a lot of coal.
    Mr. Burgess. So if we were really able to achieve the goals 
that were set forward in Waxman-Markey, the rest of the world 
could actually negate any benefit effect if indeed that was the 
cause of global warming?
    Mr. Christy. Whatever the United States does, it will be 
pretty much imperceptible for the global climate.
    Mr. Burgess. Very good. Thank you, Mr. Chairman. I will 
yield back.
    Mr. Gardner. Thank you, Mr. Chairman--or thank you, Mr. 
Burgess.
    Mr. Burgess. I will yield you additional time.
    Mr. Gardner. Yes, that is right. Well, I was maybe getting 
even for Mr. Doyle right there.
    Mr. Olson, you are recognized for 5 minutes.
    Mr. Olson. I thank the Chair, and on behalf of the people 
of Texas 22, welcome to our witnesses. Thank you for your time 
and expertise today.
    Clean air and economic growth are not mutually exclusive. 
The great people of Texas 22 aren't buying the notion that EPA 
can create jobs by strangling business with overly burdensome 
and unnecessary regulations, especially when the electricity 
bills are going up. We all know, the people of my district, 
Texas 22, our rates by the comments our President made when he 
was running for the office in 2008 in San Francisco. You guys 
know these comments but just let me read them for you. If 
someone wants to build a new coal-fired power plant, they can, 
but it will bankrupt them because they will be charged a huge 
sum. I served 10 years in the United States Navy. It sounds 
like an attack on coal, doesn't it?
    My first question is for you, Mr. McCullough and Mr. Hilton 
and Mr. Voyles. Do you believe EPA's goal with all these new 
rules is to shut down coal plants like the President said in 
San Francisco and keep new ones from being built?
    Mr. McCullough. Well, the motive is up to someone else to 
decide but the effect is that no new coal plants will be built.
    Mr. Olson. Mr. Voyles?
    Mr. Voyles. I would concur with that.
    Mr. Olson. Mr. Hilton?
    Mr. Hilton. I would concur with that.
    Mr. Olson. Thank you.
    Texas is predicted to have a severe supply shortage, 
meaning that we will need more electricity than it can 
generate. We are the second largest State, the fastest-growing 
State in our Nation. We are expected to have a 2,500-megawatt 
shortfall in generating capacity, equivalent to five large 
power plants, as early as 2014. We have proposed a pet coke 
plant in Texas, the Corpus Christi area, Las Brisas Energy 
Center, that EPA has been slow walking for more than 3 years. 
Some of my colleagues have wrote EPA about 2 months ago and 
they haven't gotten back to us yet. So we are optimistic that 
we will get something from EPA. But is this the sort of 
treatment you guys are getting used to from EPA, no answers, no 
responses? I will put it another way: has EPA been a corporate 
partner or are they an adversary working against you?
    Mr. McCullough. Well, we have certainly had our discussions 
with U.S. EPA around many rules, the MACT rule for mercury 
being included in that discussion, and saw very little in the 
way of response positively for our industry.
    Mr. Olson. Mr. Voyles?
    Mr. Voyles. We too have had numbers of discussions with EPA 
on numbers of rules, and the plant that I spoke of earlier, we 
had some discussions with them about the time that was taken to 
get our permits but we did finally achieve those.
    Mr. Olson. Mr. Hilton?
    Mr. Hilton. As a technology supplier, we really don't get 
into those kind of discussions per se. We talk about technology 
with the agency.
    Mr. Olson. OK. One round of questions for all of you 
starting with Dr. Christy. Our former EPA regional 
administrator, Mr. Al Armendariz, was in charge of overseeing 
our power plants. He had resigned his radical agenda. He came 
forward to actually crucify--he used that term--to crucify the 
oil and gas companies but it went public. He now works for the 
Sierra Club, their beyond-coal campaign. What do you think 
about that? Are there more people like Dr. Armendariz working 
at EPA now?
    Mr. Christy. My impression in the Federal Government, there 
are several folks like that, have a pretty clear view of what 
the climate situation is.
    Mr. Olson. Mr. Trisko?
    Mr. Trisko. Our experience, Congressman, is that EPA is 
staffed by highly experienced experts in environmental 
regulation, and if one follows the letter of the Clean Air Act 
that has not been amended by Congress for some 22 years except 
by virtue of a 2007 5-4 Supreme Court ruling, it is not 
difficult to understand how we have ended up in the predicament 
we are today.
    Mr. Olson. Mr. McCullough?
    Mr. McCullough. Yes, I would agree. In the discussions, the 
Clean Air Act, I would classify as used as a reason or a crutch 
to not be flexible, and it is pretty consistent in that way.
    Mr. Olson. Mr. Voyles, your comment, sir?
    Mr. Voyles. I don't know that I would add anything that 
hasn't already been said. I am not sure where they get all the 
employees but they have some expertise that we talk to from 
time to time, and I think that they do try to use the Clean Air 
Act to the advantage of one side or the other, depending upon 
the issue.
    Mr. McCullough. Mr. Hilton?
    Mr. Hilton. I have great respect for the professionals at 
EPA and they do have some terrific experts there, and I think 
the comments that Mr. Trisko made are probably very 
substantial.
    Mr. Olson. Thank you.
    Mr. Thompson?
    Mr. Thompson. My experience is, the EPA officials are very 
professional and some leave the agency to work for industry and 
some for environmental groups.
    Mr. Olson. And finally last but certainly not least, Dr. 
Lashof?
    Mr. Lashof. Yes, my experience is similar. EPA Is trying to 
protect public health by setting standards. They have proposed 
a fuel-neutral and technology-neutral standard, and the public 
supports it overwhelmingly.
    Mr. Olson. Thank you. I am way over time. I thank the 
Chair.
    Mr. Gardner. The gentleman from West Virginia, Mr. 
McKinley, is recognized for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Mr. Thompson, I want to focus back in on the enhanced oil 
recovery. Are you aware that earlier this year there was an 
amendment on the floor that was adopted by Congressman Connolly 
that cut the research funding in the enhanced oil recovery?
    Mr. Thompson. I am not familiar with that.
    Mr. McKinley. So when we hear the folks on the other side 
talking about this, if we know this is going to be part of the 
solution, this is where we need to be focusing on but yet all 
these members, and Mr. Doyle was one of them that voted to cut 
the funding. I find that very interesting.
    But let me build on that just a little bit. In fact, all 
the Democrats did. If the oil industry--because I am somewhat 
aware of this process. If the oil industry finds this is a 
possibility of increased recovery, instead of--well, how many 
of them are contributing from the oil industry, how many of 
them are contributing to the carbon-capture research so that 
would enable that to occur to provide them with a supply of 
material? Are any oil companies contributing to CCS research?
    Mr. Thompson. Sure, Shell, among others, is.
    Mr. McKinley. Do you have numbers for that, how much? Are 
they contributing a million or they are contributing hundreds 
of millions of dollars?
    Mr. Thompson. No, I don't, but what I would be happy to do 
is after the hearing----
    Mr. McKinley. I would like to understand more----
    Mr. Thompson [continuing]. I would be happy to respond in 
writing.
    Mr. McKinley [continuing]. Because if they are going to be 
the ones that are going to benefit from this, I think they are 
the ones that should be contributing the money for it.
    Let us go back now to Dr. Lashof. I am just curious. It was 
touched on just a minute ago about the CO<INF>2</INF> 
emissions. Are you aware that the CO<INF>2</INF> emissions 
across North America are down to a low that hasn't been seen in 
20 years?
    Mr. Lashof. Yes, I am. I have published a report on that a 
month or so ago.
    Mr. McKinley. And so with that, you think we ought to go 
even--we need to continue this message, this fight?
    Mr. Lashof. Well, the amount of CO<INF>2</INF> in the 
atmosphere is 25 percent higher than it was in the year I was 
born, 1959, and what we need to do is stabilize that level. The 
United States needs to reduce further. Certainly, China and 
India also need to reduce. The United States has to provide 
leadership.
    Mr. McKinley. Because what you are saying is, it is the 
main culprit? I think I heard you say that is the main culprit 
of global warming.
    Mr. Lashof. Carbon dioxide traps heat in the atmosphere. It 
would be remarkable if it weren't causing global warming, and 
in fact, we are seeing global warming.
    Mr. McKinley. So you disagree with Dr. Lewis, Hal Lewis, 
when he resigned from his position, the American Physicists 
Society when he said this is the greatest pseudoscience fraud 
perpetrated on America?
    Mr. Lashof. Yes, I totally disagree with that.
    Mr. McKinley. I would assume you do. But I think several 
others have joined him in resigning because there are other 
scientists that disagree with you on that, that this is being 
used for other purposes. I look at what Hal Lewis has said, and 
if you look back to Milankovic, back to the Serbian physicist 
back in the last century, by virtue of his own studies had 
predicted that this was going to happen at this time in our 
history. Are you aware of that?
    Mr. Lashof. I am. Look, scientists will always disagree 
with each other. That is what they do. That is how they make a 
living is writing papers to disagree with other scientists. If 
we predicated policy on unanimity among scientists on any 
issue, we would never do anything.
    Mr. McKinley. Do you recognize too that National Geographic 
just came out with a study that says we are just coming out of 
an ice age, a mini-ice age, and therefore we should be 
expecting higher temperatures today?
    Mr. Lashof. I haven't seen that particular National 
Geographic article, but the fact is that the amount of heat 
trapping that the excess CO<INF>2</INF> that we put into the 
atmosphere from burning fossil fuels is now a much bigger 
factor in influencing the earth's climate than the Milankovic 
cycles and what we have had to start with. We have entered a 
new era that many scientists call the----
    Mr. McKinley. So my point here is, given that there is not 
unanimity--and I remember earlier last year when Lisa Jackson 
came before us, she said it is all been decided, that global 
warming is anthropogenic, global warming is manmade cause and 
it is CO<INF>2</INF> driven, that there is no argument anymore, 
but you also just acknowledged that it is not, that the science 
is still up in the air over that issue. So I accept that there 
is not a lack of unanimity on it because what we are about to 
do here is allow the EPA to impose a regulation. That is the 
purpose of my bill. Just hold back. If we had the scientific 
ways of doing it, then to go ahead and implement it, but when 
we don't have the technology available, let us hold back 
because there is enough evidence that possibly CO<INF>2</INF> 
is not contributing to as much of the problem as you are 
suggesting that it is. So let us just hold back. I am over my 
time----
    Mr. Lashof. Mr. McKinley, if I can just answer quickly, I 
don't agree that the science is up in the air. I said that 
there is not unanimity among scientists and there won't be, but 
the National Academy of Science said that the idea that carbon 
dioxide is contributing to climate change is as well proven as 
gravity, and I think that is a strong basis for making policy.
    Mr. Gardner. The gentleman's time is expired. The gentleman 
from Massachusetts is recognized for 5 minutes.
    Mr. Markey. Could you recognize someone from the minority 
and then come back to me? Is that possible, Mr. Chairman?
    Mr. Gardner. The gentleman yields back.
    Mr. Rush. Mr. Chairman.
    Mr. Doyle. Will the gentleman yield for 30 seconds?
    Mr. Markey. No, I am ready to go, if the majority does not 
need to have the time. Thank you, Mr. Chairman.
    So here is what I would say, that coal has dropped from 51 
percent of electrical generation down to 35 percent over the 
last 5 years, but there is a concomitant trend as well which is 
operating simultaneously which is that natural gas has risen 
from 21 percent to 30 percent. So there is a war between fossil 
fuels going on in our country right now.
    By the way, the same thing is happening on home heating oil 
in New England. The market for home heating oil is collapsing 
as the price of natural gas is rising. Now, why is that? 
Because natural gas is so much less expensive than home heating 
oil. The price of natural gas has collapsed in terms of a 
source for generation for electricity. And by the way, the same 
thing is true for wind. Wind was only 1 percent of all 
electricity just 4 years ago. It is now 4 percent of all 
electricity.
    So coal is losing a marketplace battle. There is no 
question about it. It is losing a marketplace battle. Natural 
gas is up to 30 percent. It will probably go up a percent a 
year every year. That is just a fossil-fuel battle. The same 
thing is true for home heating oil. Natural gas is eating into 
home heating oil in a very significant way. That is a fossil-
fuel interfuel battle. And I know a lot of people don't like 
it, you know, any more than--let us be honest, any more than 
the horse industry likes the horseless-carriage industry. It 
just moving on, you know, but when the price drops, that is 
what you get.
    So a lot of people are just trying to blame the concern, 
which the Obama administration or members of this committee 
that might care about clean air or pollution or science but 
that is not what has really been happening. This is all 
happening before there was any rule promulgated on 
CO<INF>2</INF>. This is already happening and it is going to 
continue to happen because of the low price of natural gas. 
Now, again, the Democrats are the party of natural gas and the 
Republicans are the party of coal, if that is how you want to 
frame it, but that would of course be a wrong frame. That is 
the wrong frame. I am just bringing to you the marketplace 
reality, the economics of it. When a flat-screen TV costs 
$5,000, you don't buy it. When the cost collapses down to $299, 
you are buying one. That is what is happening with natural gas. 
People are buying natural gas, utilities and homeowners, and 
they are moving to it, plain and simple.
    So Dr. Christy, I want to read to you two statements. One, 
scientific evidence strongly indicates that natural influences 
cannot explain the rapid increase in global near-surface 
temperatures observed during the second half of the 20th 
century, and two, it is virtually certain that increasing 
atmospheric concentrations of carbon dioxide and other 
greenhouse gases will cause global surface climate to be 
warmer. Dr. Christy, do you agree with those statements?
    Mr. Christy. Those statements have no magnitude to them, no 
metrics to them, so if the increase is 1,000th of a degree due 
to the greenhouse effect, you would say yes. You would agree 
with those statements.
    Mr. Markey. OK. Well, Dr. Christy, those statements are 
direct quotes from the 2003 American Geophysical Union 
statement on human impacts on climate that you helped to draft. 
So Dr. Christy, in 2003, you agreed with those statements, but 
the Dr. Christy of 2012 does not agree with those statements.
    Dr. Lashof, do you agree with those statements? Is the 
science, Dr. Lashof, more certain now than it was in 2003?
    Mr. Lashof. Yes, there has been a huge accumulation of 
observations and studies which tie the warming that we have 
seen to the accumulation of heat-trapping pollution in the 
atmosphere. Of course, as Dr. Christy says, there is natural 
variability. There will always be natural variability. But on 
top of the natural variability there is an undeniable trend 
that is very significant and very dangerous.
    Mr. Markey. So Dr. Lashof, tell us the status of the arctic 
right now, could you?
    Mr. Lashof. Right. So NASA released data yesterday showing 
that the arctic ice has fallen to about 3.4 million square 
kilometers at minimum. It is less than 50 percent of what it 
was in 1979. It is about a 49 percent reduction form the 
average over the whole period from 1979 to----
    Mr. Markey. Thank you, Doctor.
    I yield to the gentleman from Pennsylvania, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Markey.
    You know, I would just say in conclusion to my friends, and 
many weren't here when we passed the cap-and-trade bill in the 
House, but I think one thing is clear. Mr. Hilton says, you 
know, he has an MOU with the Chinese. We are going to use coal 
for the foreseeable future, and even if we don't use it, China 
is going to use it, India is going to use it, other countries 
are going to use it. It only makes sense that if it is going to 
be used, we try to do it in the most efficient and 
environmentally safe way. To do that, we have to make an 
investment in it. These things are not going to happen by 
themselves. So either the Chinese are going to develop the 
technology, they are going to come over here and fund the 
project and part of that deal is, they get the technology and 
then they get to market it to the world or the United States 
does it. I would suggest that, you know, if we want to deal 
with coal, I would say to my friends on the other side of the 
aisle, let us put our money where our mouth is, and if you are 
going to pass a bill saying there is no commercially available 
technology, then where is the money to make that happen? And 
until we do that, other countries will do that and they will 
have the technology and we won't.
    Mr. Gardner. The gentleman's time is expired. The gentleman 
from Virginia, Mr. Griffith, is recognized for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Dr. Christy, did you want to respond to anything that the 
previous gentleman said? I know that he made some assertions 
about your positions and you didn't get a chance to respond. 
Would you like to do that at this time?
    Mr. Christy. I agree with those statements in 2003. I was 
one of the authors. There were no magnitudes on those 
statements. CO<INF>2</INF> is a greenhouse gas. It will cause 
surface warming. How much is the uncertainty.
    Mr. Griffith. And I would point out that one of the things 
that I see as a difference with what is happening now, and lots 
of time people like to talk about the market conditions, and 
clearly the market conditions are important, but one of the 
things that is interesting is, is that there was a reference to 
the horseless carriage versus the horse-drawn vehicles, but we 
didn't outlaw horses at the same time as the horseless carriage 
was being developed and that is the big difference, and while I 
am getting older every day and thankful for that, I can 
remember in my youth a gentleman who in my hometown still had 
his team of horses to plow fields, and people felt he did a 
great job and he made a living doing that for a number of years 
well into the 1970s, and horses were not made illegal by the 
advent of the automobile.
    Mr. Hilton, did I hear you say that--and I may have 
misunderstood so please get me straight--that in regard to the 
Kemper coal-fired power plant with what they are doing that 
there would be a 20 percent rate increase?
    Mr. Hilton. That is what I have read, yes.
    Mr. Griffith. You know, this is part of what causes me 
great concern, and Dr. Christy, you touched on this earlier as 
well, is that we have all of these requirements and it is not 
just the one that we are debating today but we have numerous 
requirements coming in and every time we turn around there is a 
rate increase. We are already experiencing that in my district, 
which is a coal-producing district in southwest Virginia, but 
the folks, you know, many counties away from where the coal is 
actually dug are watching their electric rates go up and it is 
making it hard on the working poor and on the poor folks 
because they can't afford a 10 percent increase, or in this 
case, a 20 percent increase. And you mentioned that they were 
having similar problems in your community in Alabama. Is that 
true, or that you have noticed this?
    Mr. Christy. I would just say this, that we have many, many 
poor people in my State and any increase in cost of living for 
them is really a hardship.
    Mr. Griffith. And that is true in my district as well, and 
I think that is probably true in a lot of the districts across 
the United States, that what you have is, you have--when the 
price goes up, then it makes it hard.
    And you know, what is interesting is, is that everybody 
likes to talk about the statement by the President when he said 
that they would bankrupt the facilities if they were using coal 
or whatever but they also mentioned at that time in 2008 he 
mentioned as well because on capping greenhouse gases, coal 
power plants, you know, natural gas, you name it, whatever the 
plants were, whatever the industry was, they would have to 
retrofit their operations. That will cost money. They will pass 
that money on to consumers. So I just find it rather 
interesting that the consumer side of this equation is often 
left out.
    And Dr. Christy, you indicated that if the United States 
took all these actions and we reduced and continued to reduce 
our carbon footprint that it would be relatively--and I don't 
want to put your words in your mouth, I don't remember, 
something along the lines of negligible, is that correct?
    Mr. Christy. Yes.
    Mr. Griffith. In the world's output. But wouldn't you agree 
with me that it is not negligible to the families that are 
having to pay those higher increased prices for electricity to 
light and heat their homes or to run factories?
    Mr. Christy. Yes. I think anyone who sees their utility 
bill rise would feel the effect and it wouldn't be good for 
them.
    Mr. Griffith. And of course, we have got not just this 
regulation but lots of other regulations that are putting 
pressure on those prices, and then of course you have all these 
folks that are out of work because it is not just the 1,200 
folks that are going to be laid off by Alpha Natural Resources, 
which, by the way, is headquartered in my district, but it is 
also all the other coalmines that have laid off people, 
sometimes 20 at a time, 30 at a time that people aren't 
necessarily noticing and then the people who are laid off from 
suppliers, joint manufacturing, other suppliers to the 
coalmines, the railroads that may not have had the effect yet 
but will have the effect, etc., and so you are going to have 
more and more people who are unemployed because we are 
insisting upon--for a negligible result, we are insisting upon 
taking our economy and throwing it in the trashcan for a 
negligible result on carbon footprint in the world and we are 
sending our jobs overseas to other countries and we are 
watching as they gain the wealth, and when there comes a time 
when there is a technology that may make things better, we 
won't have the money to buy that technology because we will 
have sent all of our wealth overseas.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Gardner. The gentleman yields back. The chairman 
recognizes himself for 5 minutes.
    Thank you to the panelists for the opportunity to be here 
today and your testimony. Several years ago when Congress was 
considering its first greenhouse-gas bill, I received a letter 
from a couple of local rural electric associations that were 
talking about the price impact that that particular regulation 
would have on their customers. In fact, according to one 
analysis in northeastern Colorado, they determined that an 
average farmer, the average sprinkler cost for a farmer would 
increase by about $2,000 per sprinkler. This is a big pivot 
irrigation system, 160 acres. Now, if you are a farmer in 
eastern Colorado, you don't just have one pivot irrigation 
system; you have got five, maybe ten. That is $2,000 each. 
Maybe you have more. And so we are talking about considerable 
costs being added under their estimate from the rural electric 
association that that particular regulation would have on their 
customers' operations.
    And so Mr. McCullough, or was it Mr. Hilton, that you 
mentioned rate increase of 20 percent. Is that correct?
    Mr. Hilton. In Mississippi.
    Mr. Gardner. In Mississippi. And I would be curious to see 
if Mr. Trisko, are you hearing anything through the various 
businesses that you work with on rate increases?
    Mr. Trisko. Chairman, we understand that the Kentucky 
Public Commission has decided a number of cases. Now, this is 
for prospective Clean Air Act regulations for hazardous air 
pollutants and the like, not this proposed regulation, and the 
rate increases are on the order of 16 to 18 percent.
    Mr. Gardner. Mr. McCullough?
    Mr. McCullough. Yes, I would agree with that. We recently 
pulled down an order for a new scrubber for a plant in Kentucky 
that would have impacted customers there by over 30 percent.
    Mr. Gardner. Mr. Voyles?
    Mr. Voyles. Yes, as I have said in my testimony, the 
compliance plans that we recently got approved for the Utility 
MACT Rule and the New Source--the National Ambient Air Quality 
Standards are impacting our ratepayers by up to 14 and 18 
percent, not counting anything on carbon.
    Mr. Gardner. And to follow up on Mr. Griffith's questions 
as well, these are costs that are passed on to your customers, 
your consumers. Is that correct, Mr. Hilton?
    Mr. Hilton. Ultimately, of course.
    Mr. Gardner. Mr. Voyles?
    Mr. Voyles. As well as we have said before, we not only 
pass it along to all of our ratepayers but it passes along to 
the commercial industry so the food prices are impacted, 
McDonald's prices are impacted, everybody's prices are 
impacted.
    Mr. Gardner. And who does that affect the most 
disproportionately in our society? People on a fixed income, 
poor?
    Mr. Voyles. It certainly presents some significant 
challenges for fixed income.
    Mr. Gardner. Mr. McCullough, what happens to American 
business competitiveness with the rate increases of 20 percent, 
18 percent, 14 percent?
    Mr. McCullough. Obviously, it further disadvantages them. 
We have seen that in our territory with especially aluminum 
smelters who--the Century aluminum plant in West Virginia went 
out of business with the recession and recently Ormat in our 
home State of Ohio has just announced that they are going to 
decrease their production.
    Mr. Gardner. Dr. Lashof, what happens to an economy where 
rates are increasing by 20 percent, the poor being hurt and 
those on fixed incomes are being hurt disproportionately?
    Mr. Lashof. Well, Mr. Chairman if we could return to the 
specific proposal that EPA has put forward, it would not cause 
any rate increases.
    Mr. Gardner. My question to you is, if rates increase by 20 
percent, for a variety of reasons that have been mentioned, 
what happens to our economy? What happens to the poor? What 
happens to people on a fixed income?
    Mr. Lashof. It depends what else is happening in the 
economy. If people are using energy more efficiently, their 
costs might go down, which we have seen in many, many States 
that have invested in energy efficiency. You can't just look at 
rates.
    Mr. Gardner. If people that have low income are able to buy 
something that is more energy-efficient, that will help them?
    Mr. Lashof. Yes, and if we provide--and technology is 
improving on the efficiency side.
    Mr. Gardner. OK. So if people on a fixed income, are poor 
can afford to buy something new, then that will help them?
    Mr. Lashof. Well, as pollution also imposes more severe 
costs on poor people, they are exposed to it more, so the 
benefits of air-pollution regulations in fact go to the low-
income people. So the EPA is actually required to look at costs 
and benefits when they propose regulations.
    Mr. Gardner. We have actually heard testimony in this 
committee before where they have failed to do an adequate 
analysis on cost and benefits, and this is, I think, one of the 
frustrating parts of this entire debate. Nobody doubts that we 
can do a better job when it comes to energy efficiency. There 
is no doubt about that. Nobody doubts that we have incredible 
opportunities in new energy. But the problem is, when we have 
regulations that come down from agencies that increase cost on 
developing energy, on consuming energy, it hurts our economy 
and it hurts the people who are most vulnerable in our society, 
and that seems to get left out of this entire debate is the 
people who are affected disproportionately are poor and low 
income because it hurts the economy and it hurts their ability 
to lift themselves and their families out of the position that 
they are in.
    I see that my time is expired as well, and thank you very 
much to the panelists for being here, the witnesses for your 
time and testimony today. And with that, this hearing is 
adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T5564.155
    
    [GRAPHIC] [TIFF OMITTED] T5564.156
    
    [GRAPHIC] [TIFF OMITTED] T5564.157
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
